<html>
<title> - H.R. 1272, MINNESOTA CHIPPEWA TRIBE JUDGMENT FUND DISTRIBUTION ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                     H.R. 1272, MINNESOTA CHIPPEWA
                          TRIBE JUDGMENT FUND
                       DISTRIBUTION ACT OF 2011

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON INDIAN AND
                         ALASKA NATIVE AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, March 1, 2012

                               __________

                           Serial No. 112-98

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      


                  U.S. GOVERNMENT PRINTING OFFICE
73-149                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4b3a4bb94b7a1a7a0bcb1b8a4fab7bbb9fa">[email&#160;protected]</a>  



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Paul Tonko, NY
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

            SUBCOMMITTEE ON INDIAN AND ALASKA NATIVE AFFAIRS

                        DON YOUNG, AK, Chairman
                DAN BOREN, OK, Ranking Democratic Member

Tom McClintock, CA                   Dale E. Kildee, MI
Jeff Denham, CA                      Eni F.H. Faleomavaega, AS
Dan Benishek, MI                     Ben Ray Lujan, NM
Paul A. Gosar, AZ                    Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 1, 2012..........................     1

Statement of Members:
    Boren, Hon. Dan, a Representative in Congress from the State 
      of Oklahoma................................................     2
        Prepared statement of....................................     3
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Anderson, Hon. Marge, Chief Executive, Mille Lacs Band of 
      Ojibwe, Onamia, Minnesota..................................    24
        Prepared statement of....................................    25
    Black, Michael S., Director, Bureau of Indian Affairs, U.S. 
      Department of the Interior.................................     7
        Prepared statement of....................................     8
    Cravaack, Hon. Chip, a Representative in Congress from the 
      State of Minnesota.........................................     5
    Deschampe, Hon. Norman W., President, Minnesota Chippewa 
      Tribe......................................................    17
        Prepared statement of....................................    18
    LaRose, Hon. Arthur ``Archie,'' Chairman, Leech Lake Band of 
      Ojibwe.....................................................    28
        Prepared statement of....................................    30
        Legal Memorandum.........................................    37
        Addendum to Testimony....................................    40
    Peterson, Hon. Collin, a Representative in Congress from the 
      State of Minnesota.........................................     4
    Vizenor, Hon. Erma J., Chairwoman, White Earth Band of 
      Ojibwe, White Earth, Minnesota.............................    21
        Prepared statement of....................................    22

Additional materials supplied:
    Diver, Hon. Karen R., Chairwoman, Fond du Lac Band of Lake 
      Superior Chippewa, Statement submitted for the record on 
      H.R. 1272..................................................    49
    Leecy, Hon. Kevin W., Chairman, Bois Forte Band of Chippewa, 
      Statement submitted for the record on H.R. 1272............    50
    Minnesota Chippewa Tribe Enrollment Membership: March 1, 
      2012, submitted for the record.............................    21
    Minnesota Chippewa Tribe, Nelson Act Land Impact chart 
      submitted for the record...................................    20
    Minnesota Chippewa Tribe, Nelson Act Settlement Timeline 
      submitted for the record...................................    20
                                     



  LEGISLATIVE HEARING ON H.R. 1272, MINNESOTA CHIPPEWA TRIBE JUDGMENT 
                     FUND DISTRIBUTION ACT OF 2011.

                              ----------                              


                        Thursday, March 1, 2012

                     U.S. House of Representatives

            Subcommittee on Indian and Alaska Native Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 11:08 a.m., in 
Room 1324, Longworth House Office Building, Hon. Don Young 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Young, Denham; Boren, Kildee, 
Faleomavaega, and Lujan.
    Mr. Young. The Chairman notes the presence of a quorum. The 
Subcommittee on Indian and Alaska Native Affairs is meeting 
today to hear testimony on H.R. 1272, the ``Minnesota Chippewa 
Tribe Judgment Fund Distribution Act of 2011.''
    Under Committee Rule 4(f), opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee, so that 
we can hear from the witnesses more quickly. However, I ask 
unanimous consent to include any Member's opening statement in 
the hearing record, if submitted to the Clerk by the close of 
business today.
    [No response.]
    Mr. Young. Hearing no objection, so ordered.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. H.R. 1272, the ``Minnesota Chippewa Tribe 
Judgment Fund Distribution Act of 2011,'' authorizes the 
distribution of funds that belong to the six bands of Indian 
tribes that make up the Minnesota Chippewa Tribe. This bill 
does not concern any new or pending Indian claim, it does not 
cost any taxpayer money, and it does not create a new Federal 
program.
    H.R. 1272 resolves an issue that has been pending in some 
form since 1948, when the first of several claims were filed by 
all the Chippewa Bands in Minnesota, except the Red Lake Band, 
regarding Federal mismanagement of Chippewa lands and 
resources. The judgment funds concerned in this bill are 
currently held in trust by the Secretary of the Interior. The 
tribes and tribal members to whom the money legally belongs 
have not been able to collect the funds for many years, largely 
because of disagreement from one of the Bands of Indians over 
its distribution.
    Unfortunately, the applicable law that provides for the 
distribution of tribal claims judgment fund awards has failed. 
Congress no doubt had good intentions when it wrote the Indian 
Tribal Judgment Funds Use or Distribution Act in 1973--by the 
way, I was here--but the complex process it established did not 
work in the present case. It appears legal deadlines during 
that--which funds were supposed to be paid to the Chippewa 
Bands have been missed.
    This legislation sponsored by the gentlemen from Minnesota, 
Mr. Peterson and Mr. Cravaack, will bring finality to a long 
saga involving Minnesota Chippewa Indian claims. I am pleased 
to be able to hold a hearing on the important bill today.
    I look forward to hearing from our witnesses, and I will 
recognize Mr. Boren, the Ranking Member, for five minutes for 
any statement he might make.
    [The prepared statement of Mr. Young follows:]

            Statement of The Honorable Don Young, Chairman, 
            Subcommittee on Indian and Alaska Native Affairs

    H.R. 1272, the Minnesota Chippewa Tribe Judgment Fund Distribution 
Act of 2011, authorizes the distribution of funds that belong to the 
six bands of Indian tribes that make up the Minnesota Chippewa Tribe. 
This bill does not concern any new or pending Indian claim, it does not 
cost any taxpayer money, and it does not create a new federal program. 
H.R. 1272 resolves an issue that has been pending in some form since 
1948 when the first of several claims were filed by all the Chippewa 
Bands in Minnesota except the Red Lake Band, regarding federal 
mismanagement of Chippewa lands and resources.
    The judgment funds concerned in this bill are currently held in 
trust by the Secretary of the Interior. The tribes and tribal members 
to whom the money legally belongs have not been able to collect the 
funds for many years, largely because of disagreement from one of the 
Bands of Indians over its distribution.
    Unfortunately, the applicable law that provides for the 
distribution of tribal claims judgment fund awards has failed. Congress 
no doubt had good intentions when it wrote the Indian Tribal Judgment 
Funds Use or Distribution Act in 1973, but the complex process it 
established did not work in the present case, and it appears legal 
deadlines during which the funds were supposed to be paid to the 
Chippewa Bands have been missed.
    This legislation sponsored by the Gentlemen from Minnesota, Mr. 
Peterson and Mr. Cravaack, will bring finality to a long saga involving 
Minnesota Chippewa Indian claims and I'm pleased to be able to hold a 
hearing on this important bill today.
                                 ______
                                 

 STATEMENT OF THE HON. DAN BOREN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF OKLAHOMA

    Mr. Boren. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman, for holding this hearing on H.R. 1272, which would 
provide for the distribution of funds awarded to the Minnesota 
Chippewa Tribe. Let me begin by welcoming our colleagues, Mr. 
Peterson and Mr. Cravaack, and thank them on coming together to 
support this legislation.
    I want to also acknowledge and commend the efforts of the 
Minnesota Chippewa Tribal Executive Committee for their efforts 
to resolve their differences through negotiations. They worked 
hard to reach an agreement on a distribution plan that is 
reflected in the bill that we have before us today.
    In 1948 and 1951, the Minnesota Chippewa Tribe filed 
complaints before the Indian Claims Commission. The cases 
claimed that the proceeds from the sale of the land and timber 
on the six reservations were misspent, and that the land and 
the timber were sold at less than full value. On May 26, 1999, 
the claims were settled by a majority of the Tribal Executive 
Committee, and the judgment was entered. The judgment was 
simply that the Minnesota Chippewa Tribe shall recover the sum 
of $20 million from the U.S. Government.
    The Minnesota Chippewa Tribe is composed of six bands. 
Under the tribal constitution, the governing body is the Tribal 
Executive Committee, which is comprised of two elected 
officials from each band. On September 9, 1999, the Tribal 
Executive Committee allocated each band an equal share of the 
net proceeds of the judgment funds. Only the two Leech Lake 
representatives on the Tribal Executive Committee did vote no.
    On June 6, 2001, the Bureau of Indian Affairs prepared a 
report suggesting funds be allocated pro rata between the 
bands, based on the number of tribal members currently 
enrolled. The recommendations of this report were incorporated 
in legislation that was introduced in the 110th Congress. 
However, both before and after its issuance, the Minnesota 
Chippewa Tribe objected that it was inconsistent with tribal 
law. And, as a result, the previous bill went nowhere.
    H.R. 1272, and a companion measure, S. 1739, reflect the 
results of an October 2009 Tribal Executive Committee 
resolution that approved a new distribution plan. The new plan 
provides more funds to the bands with greater populations 
through per capita payments to the members. However, the 
distribution formula set out in H.R. 1272 does not enjoy 
unanimous support of the 6 member bands, and is opposed by the 
Leech Lake Band.
    Again, I want to thank the Chairman for holding this 
important hearing. And we welcome our witnesses and look 
forward to hearing their testimony.
    [The prepared statement of Mr. Boren follows:]

         Statement of The Honorable Dan Boren, Ranking Member, 
            Subcommittee on Indian and Alaska Native Affairs

    Thank you Mr. Chairman for holding this hearing on H.R. 1272, which 
would provide for the distribution of funds awarded to the Minnesota 
Chippewa Tribe.
    Let me begin by welcoming our colleagues from Minnesota, 
Representatives Colin Peterson and Chip Cravaack. I want to commend you 
both for coming together and sponsoring a single bill to provide for 
the distribution of these funds.
    I want to also acknowledge and commend the efforts of the Minnesota 
Chippewa Tribal Executive Committee for their efforts to resolve their 
differences through negotiations. They worked hard to reach an 
agreement on a distribution plan that is reflected in the bill before 
us today.
    In 1948 and 1951, the Minnesota Chippewa Tribe filed complaints 
before the Indian Claims Commission. The cases claimed that the 
proceeds from the sale of land and timber on the six reservations were 
misspent, and that the land and timber were sold at less than full 
value. On May 26, 1999, the claims were settled by a majority of the 
Tribal Executive Committee and judgment was entered.
    The judgment was simply that the Minnesota Chippewa Tribe shall 
recover the sum of $20 million from the United States.
    The Minnesota Chippewa Tribe is composed of six Bands. Under the 
Tribal constitution, the governing body is the Tribal Executive 
Committee which is comprised of two elected officials from each Band. 
On September 9, 1999, the Tribal Executive Committee allocated each 
Band an equal share of the net proceeds of the judgment funds. Only the 
two Leech Lake representatives on the Tribal Executive Committee voted 
``NO.''
    On June 6, 2001, the Bureau of Indian Affairs prepared a report 
suggesting funds be allocated pro rata between the Bands based on the 
number of tribal members currently enrolled. The recommendations of 
this report were incorporated in legislation that was introduced in the 
110th Congress. However, both before and after its issuance, the 
Minnesota Chippewa Tribe objected that it was inconsistent with tribal 
law and, as a result, the previous bill went nowhere.
    H.R. 1272 and a companion Senate measure, S. 1739, reflect the 
results of an October 2009 Tribal Executive Committee resolution that 
approved a new distribution plan. The new plan provides more funds to 
the Bands with greater populations through per capita payments to 
members. However, the distribution formula set out in H.R. 1272 does 
not enjoy unanimous support of the six member bands as it is opposed by 
the Leech Lake Band.
    Thank you again Mr. Chairman for holding this important hearing. I 
want to once again welcome our witnesses and look forward to receiving 
their testimonies.
                                 ______
                                 
    Mr. Young. With that, we will recognize our first panel, 
our colleagues, Mr. Peterson and Mr. Cravaack.
    Mr. Peterson, you are up first.

  STATEMENT OF THE HON. COLLIN PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Peterson. Well, thank you, Mr. Chairman and Ranking 
Member Boren, for holding this hearing. This is something I 
have been working on for a long time. And we have tried to work 
this out, as both of you have noted in your opening statements, 
to try to get unanimous support. But it has become clear, I 
think, that that is not going to happen. So I think the 
Minnesota Chippewa Tribe has made the best effort they can and, 
you know, they--we just need to get this resolved. It has been 
sitting there since 1999. And the bands have needs on those 
reservations that will be met by these funds, and the 
individual members, and so forth.
    So, you know, largely--I mean there has been this 
disagreement within the bands, but one of the problems was 
there was disagreement between myself and Mr. Oberstar over the 
years. We had different bills. And we could not resolve, 
between the two of us, you know, a final outcome. And that is 
part of what held everything up, you know, the fact that we had 
two different bills.
    So, I really appreciate Mr. Cravaack--we have discussed 
this at length, and I appreciate him coming on board to support 
the agreement that has been made by the Tribe on behalf of the 
bands. And, you know, we wished it was unanimous, but you know, 
I could go into the facts of the situation, but I think you 
have done a good job of laying those out. You are accurate in 
what you have said.
    And, you know, it is--this is clear, that the Minnesota 
Chippewa Tribe has the authority to make this decision. They 
are the ones that were named in the settlement. As you said, 
these funds are not considered new money, so there is no 
budgetary impact. I think we have a CBO position on that. So it 
just--you know, at some point it is time to get these things 
resolved. And, you know, we--Mr. Cravaack and I--think that the 
time has come. And we appreciate your willingness to have a 
hearing.
    And hopefully we can move this bill ahead and resolve this 
issue, because it will do a lot of good for my band. My band 
that is involved in this is the White Earth Band, which is the 
largest in the state. And the other bands, they have a lot of 
needs, and this will be very helpful to them. And they have 
worked very hard on this. So thank you, and I will yield back.
    Mr. Young. Thank you, Mr. Peterson. I can say that you have 
been very diligent and worked very hard on this legislation for 
many, many years, as you have said before. And then we got into 
this argument about what it was, an earmark or not, and we 
solved that, I believe.
    And I hope to move this bill forward because, as you 
mentioned, that is about--if I got the numbers right--the 13 
years that they have been waiting, and we probably have lost a 
percentage of those tribal members during that period of time 
to natural causes. But it is wrong to hold up a payment.
    Mr. Cravaack, you are up.

   STATEMENT OF THE HON. CHIP CRAVAACK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Cravaack. Thank you, Chairman Young and Ranking Member 
Boren, for holding today's important legislative hearing. And I 
thank the whole Subcommittee for kindly allowing me to testify 
on behalf of H.R. 1272, the ``Minnesota Chippewa Tribe Judgment 
Fund Distribution Act of 2011.'' I would also like to thank Mr. 
Peterson for his leadership in this area, as well. Being a 
freshman Member of Congress, I had to lean on him a couple of 
times in moving this bill forward.
    This bill would provide for the long-overdue release of--
distribution of funds awarded to the Minnesota Chippewa Tribe 
in a 1999 legal settlement of claims against the United States 
for damages stemming from the implementation of the Nelson Act 
of 1889.
    Mr. Chairman, I represent five of the six bands that 
constitute the Minnesota Chippewa Tribe, a sovereign, Federally 
recognized tribal government that includes six Chippewa bands. 
It was the Minnesota Chippewa Tribe that was the sole plaintiff 
in the litigation whose settlement gives rise to this 
legislation. The five bands that reside in my district are: 
Bois Forte, Grand Portage, Mille Lacs, Leech Lake, and Fond du 
Lac.
    I have met with representatives from all five Bands on a 
number of occasions in the 112th Congress, and have made it 
very clear to me that it is more than past time that we bring 
this resolution its long-standing issue. And I agree.
    The 20 million legal settlement on behalf of the Minnesota 
Chippewa Tribe entered into the 1999 agreement has been sitting 
in a Department of the Interior trust fund ever since. And, 
with interest, has grown to about $28 million. That money now 
rightfully belongs to the Minnesota Chippewa Tribe. The United 
States's only role is to temporarily hold it in trust for them 
until it can be distributed.
    Pursuant to the Judgment Fund Distribution Act of 1973, 
legislation is now required to disburse these trust funds, 
because the Department of the Interior failed to distribute the 
funds within the year of the 1999 judgment. Thus, I have joined 
with my fellow Minnesota Representatives, Mr. Collin Peterson 
and Mr. Erik Paulsen, in cosponsoring the legislation before 
you today that will fulfill this obligation.
    The distribution formula put forth in H.R. 1272 seeks to 
reflect and honor the formula decided democratically by the 
governing body of the Minnesota Chippewa Tribe known as the 
Tribal Executive Committee, an elected body consisting of two 
representatives from each of the six tribal bands.
    On October 1st, 2009, the Minnesota Chippewa Tribe 
Executive Committee voted for, and passed by a vote of 10-2, a 
resolution that supported a per-capita apportionment of $300 
per member enrolled in each of the 6 bands, followed by an 
equal 6-way split of the remaining settlement funds. H.R. 1272 
will distribute the settlement funds according to this formula.
    I acknowledge that the Leech Lake Band of Ojibwe does not 
join the other five member Bands of the Minnesota Chippewa 
Tribe in support of the distribution formula set forth in H.R. 
1272. It is always difficult to craft a compromise between six 
different and competing interests, and I would prefer that the 
distribution plan have unanimous support.
    However, Representative Peterson and I agree that H.R. 1272 
is the solution that must be enacted in order to fulfill the 
United States Government's legal obligation, conclude its 
litigation with the Minnesota Chippewa Tribe, and release the 
over $28 million in settlement funds in an expeditious manner.
    Plus, the distribution formula in H.R. 1272 was chosen 
democratically by a majority vote of the stakeholders 
themselves. H.R. 1272 respects the decision of the governing 
body of the entity that brought forth the claim on behalf of 
all six bands, and that the U.S. Court of Federal Claims 
recognizes as having the constitutional authority to enter into 
a proposed settlement on behalf of all six bands. That 
governing body is the Minnesota Chippewa Tribe Tribal Executive 
Committee, and that Tribal Executive Committee has asked us to 
enact H.R. 1272.
    All six bands shared equally in the expense and risk of 
prosecuting the case, and the Tribal Executive Committee 
provided the six bands an equal opportunity to vote on how the 
judgment funds should be disbursed. The release of these $28 
million dollars to the members of the Minnesota Chippewa Tribe 
will have positive implications far beyond righting a past 
wrong. This money will flow directly into the hands of the 
bands and their members, sparking much needed consumer 
activity, and hopefully investment, in these reservations and 
in Northern Minnesota. This will benefit the entire region.
    Thus, I am hopeful that the House Natural Resources 
Committee will move quickly to report H.R. 1272 out of Full 
Committee, ready it for the Floor consideration, and bring 
resolution to this long-standing issue as requested by the 
super majority of the six constituent bands of the Minnesota 
Chippewa Tribe.
    Again, I thank Chairman Young and Ranking Member Boren, and 
all members of the Subcommittee for allowing me the opportunity 
to testify today, and I yield back.
    Mr. Young. Thank you, Mr. Cravaack, and very well done. For 
a freshman, you kept within the five minutes, and I want to 
congratulate you.
    Mr. Cravaack. Thank you, sir.
    Mr. Young. It means you have a great future ahead of you.
    Mr. Cravaack. Thank you, sir.
    Mr. Young. Now, you have to leave, I take it.
    Mr. Cravaack. Yes, sir. I do.
    Mr. Young. Well, you are excused. I love saying that. I 
used to be a school teacher. You are excused.
    [Laughter.]
    Mr. Young. Mr. Peterson, I don't have any questions. Mr. 
Boren, do you have any questions?
    Mr. Boren. No.
    Mr. Young. I do thank both of you, and have a good weekend.
    As the gentlemen are slowly moving, I would like now to 
call up Michael Black, Bureau of Indian Affairs. If you will, 
come up, Michael. Good to see you, Mr. Black, again. Welcome. 
Proceed.

           STATEMENT OF MICHAEL S. BLACK, DIRECTOR, 
                    BUREAU OF INDIAN AFFAIRS

    Mr. Black. Chairman Young, Ranking Member Boren, and 
members of the Subcommittee, my name is Mike Black, and I am 
director of the Bureau of Indian Affairs. Thank you for the 
opportunity to present the Department's views on H.R. 1272, the 
``Minnesota Chippewa Tribe Judgment Fund Distribution Act.'' 
The ``Minnesota Chippewa Tribe Judgment Fund Distribution Act'' 
is intended to provide for the distribution of funds owed to 
the Minnesota Chippewa Tribe by order of the United States 
Court of Federal Claims in docket numbers 19 and 188.
    The Department appreciates the effort by the Tribal 
Executive Committee of the Minnesota Chippewa Tribe to resolve 
their differences through negotiation, and to reach agreement 
on a distribution plan. However, the Department acknowledges 
that the distribution formula set forth in H.R. 1272 does not 
have the unanimous support of the Minnesota Chippewa Tribe's 
six member bands, as one band has expressed its opposition to 
the distribution plan.
    The Department supports H.R. 1272 because it respects the 
decisions of the governing body of the Minnesota Chippewa 
Tribe. The Minnesota Chippewa Tribe is a sovereign government 
established in 1934, pursuant to the Indian Reorganization Act. 
The Secretary approved the Tribe's constitution in 1936. Under 
that constitution, the Minnesota Chippewa Tribe consists of six 
member bands on six different reservations: Bois Forte, Fond Du 
Lac, Grand Portage, Leech Lake, Mille Lacs, and White Earth. 
Each band has two representatives on the Tribal Executive 
Committee, which is the governing body of the entire Minnesota 
Chippewa Tribe. Each constituent band, however, also functions 
as a distinct sovereign government.
    On January 22, 1948, the Minnesota Chippewa Tribe, 
representing all Chippewa bands in Minnesota, except the Red 
Lake Band, filed a claim before the Indian Claims Commission in 
docket number 19 for an accounting of all funds received and 
expended through the Nelson--or to the Nelson Act.
    On August 2, 1951, the Minnesota Chippewa Tribe filed a 
number of claims before the Indian Claims Commission on docket 
number 188 for an accounting of the government's obligations to 
each of the member bands of the Tribe under various statutes 
and treaties that are not covered by the Nelson Act.
    On July 1, 1998, the TEC, or Tribal Executive Committee, 
enacted Resolution 01-99, which approved the settlement of the 
claims for a sum of $20 million. The vote was six in favor of 
adopting the resolution and three against. The United States 
Court of Federal Claims accepted the TEC's decision and awarded 
$20 million to the Minnesota Chippewa Tribe in May 1999, and 
the funds were transferred to the Department on June 22, 1999, 
and have been held in trust ever since.
    On October 1, 2009, the TEC passed Resolution 146-09 by a 
vote of 10 in favor and 2 against to distribute the judgment 
funds in accordance to a formula similar to that set forth in 
H.R. 1272.
    The Department understands that disagreements among the 
Minnesota Chippewa Tribe's constituent bands, and between the 
Department and the Tribe, have prevented the distribution of 
the settlement funds for a number of years. The Department also 
understands that one band opposes the distribution formula set 
out in H.R. 1272. The Department appreciates the concerns of 
the band, and would prefer a unanimous agreement among the six 
bands regarding the best method to distribute the settlement 
funds. Nevertheless, the recognized governing body of Minnesota 
Chippewa Tribe has voted in favor of the distribution formula 
set forth in H.R. 1272.
    Out of respect for the decision of the Minnesota Chippewa 
Tribe, and in light of the need to distribute the settlement 
funds in an equitable and expeditious manner, the Department 
supports H.R. 1272. The Department would prefer that any 
distribution plan have the unanimous support of all the 
Minnesota Chippewa Tribe's constituent bands. Should the 
Committee and sponsors of H.R. 1272 wish to consider amendments 
to the bill in an effort to gain the unanimous support of the 
Minnesota Chippewa Tribe, the Department is willing to 
participate in that effort.
    Nevertheless, the 1999 settlement itself was not reached 
with the unanimous consent of the Minnesota Chippewa Tribe's 
constituent bands. And the Department's view on H.R. 1272 is 
that it is the most equitable and expeditious means to 
distribute the funds agreed upon in that settlement, and to 
provide a small measure of justice to the citizens of the 
Minnesota Chippewa Tribe.
    Mr. Chairman, this concludes my statement, and I will be 
happy to answer any questions that you may have.
    [The prepared statement of Mr. Black follows:]

    Statement of Mike S. Black, Director, Bureau of Indian Affairs, 
                United States Department of the Interior

    Good morning, Chairman Young, Ranking Member Boren, and Members of 
the Subcommittee. My name is Mike Black, and I am the Director of the 
Bureau of Indian Affairs (BIA). I am pleased to be here today to 
testify on H.R. 1272, Minnesota Chippewa Tribe Judgment Fund 
Distribution Act. The bill is intended to provide for the distribution 
of funds owed to the Minnesota Chippewa Tribe by order of the United 
States Court of Federal Claims in Docket Nos. 19 and 188. The 
Department appreciates the effort by the Tribal Executive Committee of 
the Minnesota Chippewa Tribe to resolve their differences through 
negotiation and to reach agreement on a distribution plan. However, the 
Department acknowledges that the distribution formula set forth in H.R. 
1272 does not have the unanimous support of the Minnesota Chippewa 
Tribe six member bands as the Leech Lake Band of Ojibwe (Leech Lake) 
has expressed its opposition to the distribution plan. The Department 
supports H.R. 1272 because it respects the decisions of the governing 
body of the Minnesota Chippewa Tribe.

Background
    Congress enacted the Nelson Act, dated January 14, 1889, 25 Stat. 
642, (Nelson Act) to establish a process ``for the complete cession and 
relinquishment in writing of all of [the Chippewa Indians in the State 
of Minnesota's] title and interest in and to all the reservations of 
said Indians in the State of Minnesota, except the White Earth and Red 
Lake Reservations. The Nelson Act provided that proceeds from the sale 
of lands of the Chippewa Indians in Minnesota were to be placed into a 
fund within the Treasury for a period of 50 years, with annual payments 
of interest made to individual Chippewa Indians. Section 7 of the 
Nelson Act provided that, after the expiration of 50 years, ``the said 
permanent fund shall be divided and paid to all of the said Chippewa 
Indians and their issue then living, in cash, in equal shares[.]'' 
Those funds were to be distributed in equal shares, without regard to 
which reservation lands they were tied.
    Following the 50-year period contemplated by the Nelson Act, there 
were no remaining funds to distribute in equal shares to the individual 
Chippewa Indians in Minnesota.
    The Minnesota Chippewa Tribe was established in 1934, pursuant to 
the Indian Reorganization Act. The Secretary approved the Tribe's 
constitution in 1936. Under that Constitution, the Minnesota Chippewa 
Tribe consists of six member bands, on six different reservations: Bois 
Fort, Fond du Lac, Grand Portage, Leech Lake, Mille Lacs and White 
Earth. Each Band has two representatives on the Tribal Executive 
Committee (TEC), which is the governing body for the entire Minnesota 
Chippewa Tribe.
    On January 22, 1948, the Minnesota Chippewa Tribe, representing all 
Chippewa bands in Minnesota except the Red Lake Band, filed a claim 
before the Indian Claims Commission in Docket No. 19 for an accounting 
of all funds received and expended pursuant to the Nelson Act, On 
August 2, 1951, the Minnesota Chippewa Tribe, representing all Chippewa 
Bands in Minnesota except the Red Lake Band, filed a number of claims 
before the Indian Claims Commission in Docket No. 188 for an accounting 
of the Government's obligations to each of the member bands of the 
Tribe under various statutes and treaties that are not covered by the 
Nelson Act. The Department understands that the expenses for 
prosecuting the Minnesota Chippewa Tribe's claims in Docket Nos. 19 and 
188 were shared equally by the six Bands.
    The primary claims asserted by the Minnesota Chippewa Tribe in 
Docket Nos. 19 and 188 were that the proceeds from the sale of land and 
timber on the six reservations pursuant under the Nelson Act were 
misspent, and that the Tribe's land and timber were sold at less than 
full-value.
    On July 1, 1998, the TEC enacted Resolution 01-99, which approved 
the settlement of the claims for a sum of $20 million. The vote was 6 
in favor of adopting Resolution 01-99 and 3 against. The United States 
Court of Federal Claims accepted the TEC's decision, and awarded $20 
million to the Minnesota Chippewa Tribe in May 1999, in Docket Nos. 19 
and 188. The court specifically stated ``[t]he Tribal Executive 
Committee has the constitutional authority to enter into the proposed 
settlement on behalf of the Minnesota Chippewa Tribe.'' The funds were 
transferred to the Department on June 22, 1999 and have been held in 
trust since.
    The Indian Tribal Judgment Funds Act (Act) of October 19, 1973, 87 
Stat. 466, 25 U.S.C. Sec. 1401 et seq., as amended, requires the 
Secretary of the Interior to submit to the Congress a plan for the use 
or distribution of funds to an Indian tribe. Under subsections 2(c) and 
(d) of the Act, should the Secretary determine that circumstances do 
not permit for the preparation and submission of a plan as provided 
under the Act and the Secretary cannot obtain the consent from the 
tribal governing body concerning the division of the judgment funds 
within 180 days after the appropriation of the funds for the award, the 
Secretary is required to submit to the Congress proposed legislation to 
authorize use or distribution of such funds.
    Pursuant to the Act, the Acting Deputy Commissioner of Indian 
Affairs issued a Results of Research Report on the Judgment in Favor of 
the Minnesota Chippewa Tribe, et al., v. United States, Dockets 19 and 
188 (Report) on June 6, 2001. The Report recommended that 35 percent of 
the funds should be distributed to each of the six Minnesota Chippewa 
Bands (Bands) in proportion to their losses and 65 percent should be 
distributed to each of the Bands in proportion to their current tribal 
enrollment.
    Also pursuant to the Act, in April of 2007, the Department 
submitted a legislative proposal to the Speaker of the House of 
Representatives and to the President of the Senate. The Minnesota 
Chippewa Tribe expressed opposition to both the 2001 and the 2007 
distribution plans, for varying reasons.
    The Department's 2007 proposal was introduced in the 110th Congress 
by Congressman Collin Peterson on May 14, 2007 as H.R. 2306. H.R. 2306 
provided that the fund should be allocated pro rata between the six 
Minnesota Chippewa Bands based upon the number of tribal members 
currently enrolled within each of the Bands.\1\ The House Natural 
Resources Committee held a hearing on the bill, but no further action 
was taken on H.R. 2306.\2\
---------------------------------------------------------------------------
    \1\ By letter dated May 22, 2008, then-Assistant Secretary of 
Indian Affairs, Carl Artman, rescinded the June 6, 2001 Results of 
Research Report which forms the basis for H.R. 2306. By letter dated 
May 30, 2008, Legislative Counsel for the Department clarified that Mr. 
Artman's letter ``does not reflect the views of the Department of the 
Interior or the Administration on this issue.''
    \2\ 25 U.S.C. Sec. 1405 states ``[t]he plan prepared by the 
Secretary shall become effective, and he shall take immediate action to 
implement the plan for the use or distribution of such judgment funds, 
at the end of the sixty-day period (excluding days on which either the 
House of Representatives or the Senate is not in session because of an 
adjournment of more than three calendar days to a day certain) 
beginning on the day such plan is submitted to the Congress, unless 
during such sixty-day period a joint resolution is enacted disapproving 
such plans.'' The Department could not find a joint resolution from 
Congress disapproving the plan.
---------------------------------------------------------------------------
    On October 1, 2009, the TEC passed Resolution 146-09, by a vote of 
10 in favor and 2 against, to distribute the judgment funds. H.R. 1272 
incorporates many of the provisions in the Tribal Resolution 146-09.
H.R. 1272
    Section 5 sets aside for each Band a portion of available judgment 
funds equivalent to $300 for each member enrolled within each Band. 
After the funds are divided, those funds will be placed in separate 
accounts. ``Per Capita'' account for each Band and an ``Equal Shares'' 
account for each Band.
    After the Secretary of the Interior deposits the available funds 
into the ``Per Capita'' accounts and ``Equal Shares'' accounts, a Band 
may withdraw all or part of the monies in its account. All funds shall 
be used for the purposes of distributing one $300 payment to each 
enrolled member of the Band.
    Each Band may distribute an additional $300 to the parents or legal 
guardians for each dependent Band member instead of distributing $300 
payments to the Band members themselves, or deposit into a trust 
account the $300 payments of each dependent Band member for the benefit 
of such dependent Band members to be distributed under the terms of 
said trust.
    Section 5(f) addresses the distribution of unclaimed payments. This 
section provides that one year after the distribution all unclaimed 
payments for the Tribe to be returned to the Secretary who shall divide 
the funds equally among the Bands and deposit the divided shares into 
``Equal Shares'' accounts.
    If a Band exercises its right to withdraw monies from its accounts, 
the Secretary shall not retain liability for the expenditure or 
investment of the monies after they are withdrawn.

Department's position on H.R. 1272
    H.R. 1272 raises a unique and complex question involving the United 
States' respect for the sovereignty of tribal governments. The 
Minnesota Chippewa Tribe is a sovereign government, formed in 1936 
under the Indian Reorganization Act, and the TEC is the governing body 
of the Tribe. The TEC is comprised of twelve members, two from each of 
the six constituent Bands. Each constituent Band, however, also 
functions as a distinct sovereign government.
    On October 1, 2009, the TEC passed Resolution 146-09, by a vote of 
10 in favor and 2 against, to distribute the judgment funds in 
accordance to the formula set forth in H.R. 1272. The Department 
understands that disagreements among the Minnesota Chippewa Tribe's 
constituent bands, and between the Department and the Tribe, have 
prevented the distribution of the settlement funds for a number of 
years. The Department also understands that the Leech Lake Band opposes 
the distribution formula set out in H.R. 1272. Leech Lake has 
consistently supported the view that the distribution should be based 
upon total damages suffered by each band. The Department appreciates 
the concerns of Leech Lake, with whom it has a government-to-government 
relationship, and would prefer a unanimous agreement among the six 
bands of the Minnesota Chippewa Tribe regarding the best method to 
distribute the settlement funds.
    Nevertheless, the recognized governing body of the Minnesota 
Chippewa Tribe has voted 10-2 in favor of the distribution formula set 
forth in H.R. 1272. Out of respect for the decision of the Minnesota 
Chippewa Tribe, and in light of the need to distribute the settlement 
funds in an equitable and expeditious manner, the Department supports 
H.R. 1272.
    The Nelson Act originally contemplated a common-fund for the 
benefit of individual Chippewa Indians of Minnesota, which would have 
been distributed to individuals on a per capita basis. H.R. 1272 
differs from previous plans to distribute the settlement funds, and 
reflects the original intent of Congress to distribute the common 
proceeds to individuals on a per capita basis.
    The Minnesota Chippewa Tribe filed Docket Nos. 19 and 188 for the 
common benefit of all its constituent Bands and members. All six bands 
equally shared the expense and risk of prosecuting the cases. H.R. 1272 
also reflects the equal risk shared by the constituent bands when the 
Minnesota Chippewa Tribe initiated its claim more than 60 years ago.
    The TEC's 1998 vote to settle the cases for $20 million was not 
unanimous, as three members voted against the proposed settlement. But 
for the TEC's vote to settle the case, Dockets Nos. 19 and 188 could 
still be in litigation. The TEC's settlement vote, however, was 
respected by all Bands and the federal court, which stated ``[t]he 
Tribal Executive Committee has the constitutional authority to enter 
into the proposed settlement on behalf of the Minnesota Chippewa 
Tribe.''
    Once again, the Department would prefer that any distribution plan 
have the unanimous support of all of the Minnesota Chippewa Tribe's 
constituent bands. Should the Subcommittee, and the sponsors of H.R. 
1272, wish to consider amendments to the bill in an effort to gain the 
unanimous support of the Minnesota Chippewa Tribe, the Department is 
willing to participate in that effort.
    Nevertheless, the 1999 settlement itself was not reached with the 
unanimous consent of the Minnesota Chippewa Tribe's constituent bands, 
and the Department views H.R. 1272 as the most equitable and 
expeditious means to distribute the funds agreed upon in that 
settlement, and to provide a small measure of justice to the citizens 
of the Minnesota Chippewa Tribe.
    In addition, the Department does have two suggested amendments to 
the bill. The Department suggests amending the language in Section 5 of 
the bill to clarify that parents or legal guardians of dependents will 
not receive an additional $300 for each dependent but rather, that 
parents or legal guardians of dependents may receive a $300 payment on 
behalf of their dependent.
    Section 5(g) provides that, the Secretary shall not retain 
liability for the expenditure or investment of the monies after they 
are withdrawn by the Bands. Pursuant to Section 5(c) and 5(f), a Band 
may make separate withdrawals: once for per capita distribution, after 
which remaining funds are returned to the Secretary; and, once again 
from the ``Equal Shares account.'' The Department recommends amending 
Section 5(g) to clarify that the Secretary shall not retain liability 
for the expenditure or investment of the funds after each withdrawal.
    Mr. Chairman, this concludes my statement and I will be happy to 
answer any questions the Subcommittee may have.
                                 ______
                                 
    Mr. Young. That is one of the better testimonies I have had 
from the BIA, so thank you. I appreciate it. Very well done.
    Mr. Black. Well, thank you.
    Mr. Young. Mr. Boren, you have any questions?
    Mr. Boren. Sure, just a couple questions. One, now this 
money, the $20 million, it has been sitting in a trust account, 
or some kind of an account, and it has been accruing interest. 
Is that correct?
    Mr. Black. Yes, sir.
    Mr. Boren. How much interest is there in the account?
    Mr. Black. From what I understand, it is approximately 
about $28 million now. So it would be around $8 million in 
interest.
    Mr. Boren. Wow. OK. That is one question. So when this--
like, let's say this legislation is approved. All $28 million 
is split that way?
    Mr. Black. Yes, in accordance with the formula set forth in 
the bill, yes.
    Mr. Boren. Oh, wonderful. So, basically, you all support 
the bill. You would rather it be unanimous, but it is--you 
know, but you still support the bill. I am a little curious 
about you would be willing to work on an amendment to the bill, 
be willing to be a part of that process. I don't see if you 
amend it in some way you end up making all the--you know, there 
is one band that would be happy, and all the other bands 
wouldn't be happy. How would this--how could this be amended 
where everyone would get along? It doesn't sound like it could 
be amended in that way.
    Mr. Black. I don't know that--I mean, honestly, sir, I 
don't know that it could. I think, you know, if it was decided 
to make one more effort to do that, you know, we would be more 
than happy to participate in that. But it has been an ongoing 
effort, as it was stated earlier, for 12 years.
    Mr. Boren. Yes. From what I can tell, this has been going 
on for so long. I think people are ready to get the money and 
get this thing on down the road.
    But I yield back, Mr. Chairman.
    Mr. Young. Mr. Denham?
    Mr. Denham. Nothing.
    Mr. Young. Nothing? Mr.--go ahead, sir.
    [Laughter.]
    Mr. Faleomavaega. You can call me John Wayne, it is all 
right. Thank you, Mr. Chairman. I want to welcome Mr. Black, 
also, in testifying before the Committee. Just a couple of 
questions, just for clarifying purposes.
    What is the BIA's obligation under the Indian Tribal 
Judgment Funds Distribution Act?
    Mr. Black. Well, there was a couple things that--called out 
for there, you know, to basically develop a plan for the 
distribution within 180 days of appropriation of the funds. You 
know, that--there was a study done back in 2001 that was 
submitted. And in addition, if we are not able to do that, or 
reach unanimous consent of the bands, we were to propose 
legislation which, again, was done in 2007.
    Mr. Faleomavaega. And we are talking about how many years 
that we have been going through this exercise, 20 years, 25 
years, 30 years?
    Mr. Black. Roughly about 12 years since the appropriation 
of----
    Mr. Faleomavaega. Yes, but the funds have been there, 
sitting there, for how many years?
    Mr. Black. About 12 years since----
    Mr. Faleomavaega. I thought it was before----
    Mr. Black. It was first distributed in 1999.
    Mr. Faleomavaega. OK. Correct me if I am wrong. There is 
involvement of--the Indian Claims Commission was involved in 
this. Has the Indian Claims Commission ever adjudicated the 
situation among the tribes, the division of the funds?
    Mr. Black. Not that I am aware of.
    Mr. Faleomavaega. OK, what about the U.S. Court of Federal 
Claims?
    Mr. Black. They are the ones that awarded the judgment, I 
believe, sir.
    Mr. Faleomavaega. OK. I remember years ago we had this 
hearing in terms of--you know, it was bad enough to bring 
issues affecting our Native American Indian tribes before the 
Congress. Even more difficult is the fact that there is 
division even among the different tribes. And it makes it very 
difficult. Now the Congress has to be the judge and jury over 
an issue I thought maybe the U.S. Court of Federal Claims has 
made--is given that responsibility.
    I--as it is right now, the pot is about, what, $28 million?
    Mr. Black. Approximately, from----
    Mr. Faleomavaega. And basically, you are in agreement with 
the decision made by the Court of Federal Claims, apportioning 
by population? Am I correct on that?
    Mr. Black. The Court of Federal Claims, I don't believe, 
made that decision. That was--that is what is being set forth 
in----
    Mr. Faleomavaega. Oh, it was the Committee, the Executive 
Committee, that decided that apportionment of the funds be done 
by population. Am I correct on that? And I think there were 
some problems here.
    As I read the background information of the problems that 
we were confronted with is the fact that the damages--the tribe 
most affected, the losses--whatever took place at the time was 
68 percent losses was the problem with the Leech Lake Band. And 
then we have here the situation--the division of the 
population, if that is the factor, is that the White Earth Band 
is 53 percent of the population.
    So it is the question of how the funds should really be 
divided equitably. Should it be done according to the loss of 
damages, or should it be done according to population? What is 
your opinion on that?
    Mr. Black. You know, I don't know that I have an opinion on 
that, sir. I think that has been one of the issues at question 
over the past 12 years, in trying to reach an agreement amongst 
all of the bands.
    Mr. Faleomavaega. And if--wasn't there some consideration 
that maybe the funds be distributed evenly among the different 
bands?
    Mr. Black. That was another----
    Mr. Faleomavaega. That was the original----
    Mr. Black. That was another option, I believe, that was 
considered, yes.
    Mr. Faleomavaega. OK. And then the next option was divided 
according to population. That is the latest decision right now.
    Mr. Black. Well, that is part of this decision, yes.
    Mr. Faleomavaega. And that is what the proposed legislation 
tends to do.
    Mr. Black. The proposed legislation proposes to basically 
issue it out per capita, based on the membership of the 
different bands, with the balance of funds remaining to be 
distributed out equally amongst the six bands.
    Mr. Faleomavaega. And if we were to calculate the losses, 
though, if you want to look at it in terms of how each of the 
bands had these losses, would you say the Leech Lake Tribe is 
the worst one off?
    Mr. Black. I don't have those numbers in front of me, sir.
    Mr. Faleomavaega. Could you provide that for the record? I 
would be very curious if there was a--I mean I am sure that 
the--there is legitimate concerns of the Leech Lake Band, in 
terms of saying, ``Well, we suffered the most. Shouldn't we be 
given a more reasonable amount in that effect?'' Or should it 
be done strictly by population?
    Mr. Black. Yes, we can see what we can provide you, sir.
    Mr. Faleomavaega. Well, I mean, do you agree to that?
    Mr. Black. Oh, I don't----
    Mr. Faleomavaega. You don't have an opinion.
    Mr. Black. [No response.]
    Mr. Faleomavaega. All right, Mr. Chairman. Thank you.
    Mr. Black. Thank you.
    Mr. Young. Mr. Denham?
    Mr. Denham. Thank you, Mr. Chairman. In the opinion of the 
Department, is there a legal way for the Minnesota Chippewa 
Judgment Funds concerned in this bill to be distributed to the 
tribes or tribal members without an Act of Congress?
    And let me just explain. If you were able to get an 
agreement with all the tribes, would you still need an Act of 
Congress? Would it still be required to authorize these funds?
    Mr. Black. You know, we would still have to present any 
plan like that before Congress. And I think at this point that 
it probably will require an Act of Congress. Because we have 
submitted proposed legislation on a distribution plan, and 
that--back in 2007, and we missed the 180-day deadline. I 
believe it would require an Act of Congress at this point.
    Mr. Denham. So the BIA is not able to--assuming there was 
an agreement by all parties, BIA does not have the authority to 
disperse funds without us--congressional approval?
    Mr. Black. Without at least some kind of a plan submittal 
to Congress? Under the Indian Tribal Judgment Funds Act, we are 
required to submit a report or a distribution plan to Congress. 
And there are--there is some language in there that basically 
says if it is not acted upon it would become deemed approved. 
So I think there may be some question as to what that would do.
    Mr. Denham. Thank you.
    Mr. Young. Mr. Lujan?
    Mr. Lujan. Mr. Chairman, thank you very much. And I want to 
thank you for bringing us together with all of our tribal 
leaders and all of our witnesses today. This is a complex 
issue, and I am glad that we can get additional information in 
order to help us make this decision.
    Mr. Black, when the Department is making decisions or 
taking into consideration settlements, does it consider damages 
to tribes?
    Mr. Black. I think that would be based on what the issue 
is, how the settlement is written up.
    Mr. Lujan. Should Congress take into consideration damages 
to tribes when considering settlements?
    Mr. Black. There again, I don't know that I have an answer 
for that, sir.
    Mr. Lujan. Is there direction that the Department can give 
the Congress when settlements are before us? They take 
positions on settlements, do they not?
    Mr. Black. There again, I think it is probably dependent 
upon what is at issue, what the claims are within the suit, or 
whatever the issue may be.
    Mr. Lujan. But it would be fair to say that the damages 
that are--that the tribes bring forward is one of the main 
criteria that we should weigh when taking these settlements 
into consideration?
    Mr. Black. There again, I guess I don't know if I have a 
good answer for you on that, sir.
    Mr. Lujan. OK. Let me back up with where these questions 
are coming from. In 1985, the Congress enacted the White Earth 
Land Settlement Act, or W-E-L-S-A, WELSA. This was a claim 
involving payment for 175,000 acres. Can you tell us how the 
money was distributed among the six bands? And was it based on 
damages?
    Mr. Black. On WELSA I don't have an answer. I can get that 
to you, though.
    Mr. Lujan. Appreciate that. This also stems back to back in 
2009 Congress enacted the Aamodt Water Settlement involving 
four Pueblos, Tesuque, Nambe, San Ildefonso, and Pojoaque in my 
congressional district. The settlement was based on the damages 
and prior rights of the four Pueblos.
    For example, the first priority water rights of the Pueblos 
ranged from 1,400 acre-feet per year to 236 acre-feet per year. 
I don't believe the four Pueblos would have agreed to just 
split up the settlement evenly, and I don't think that Congress 
would have approved such a plan that didn't take into account 
damages each of the tribes would suffer.
    In H.R. 1272, part of the distribution plan directs the 
Secretary to make an even six-way split. And so I think my 
questions are along the lines of Mr. Faleomavaega. Can you tell 
us if the Secretary believes that this is equitable, and if the 
damages respective to each band should be considered?
    Mr. Black. You know, this is really an agreement that was 
reached by the Tribal Executive Committee of the Minnesota 
Chippewa Tribe, and we are basically trying to support that at 
this point.
    Mr. Lujan. So, in the future, if we have disputes in New 
Mexico and other parts of the country, and the tribes get 
together and provide a settlement option to the Secretary, you 
are going to approve it? You are going to support what comes 
from our Tribes, directly?
    Mr. Black. Well, I think it is going to depend on what that 
is, what information is before us, what the settlement itself 
said, and the language of that settlement.
    Mr. Lujan. So it is going to be a case-by-case basis? In 
some instances the Secretary and the Department will intervene 
and say, ``We don't agree with your settlement,'' but in other 
instances it will say, ``We embrace your settlement''?
    Mr. Black. Possibly. I don't have a good answer for you on 
that, sir.
    Mr. Lujan. All right. Well, Mr. Chairman, I hope to get 
some direction from you as we go through this, as well. Then 
maybe, you know, with some of the staff there you can help me 
with some of the facts there as well, and I would like to learn 
a little bit more----
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Lujan. Absolutely. I yield to Mr. Faleomavaega----
    Mr. Faleomavaega. Real quick, I just wanted to ask Mr. 
Black. What is the total population of the six bands that we 
are talking about here, for the record?
    Mr. Black. I don't have that, but I can get that for you.
    Mr. Faleomavaega. Don't have it? Six bands? We don't have 
the tally of the population of all the bands?
    Mr. Black. I do; I don't know it off the top of my head, 
sir.
    Mr. Faleomavaega. Could you submit that for the record?
    Mr. Black. I can submit----
    Mr. Faleomavaega. When you talk about the tribes, is it 
just the State of Minnesota? Because I think that part of the 
Chippewa Nation also covers Wisconsin, even up in Canada, even 
North Dakota. How are they involved? Are they in any way----
    Mr. Black. They are not involved in this. This is the 
Chippewa Tribes of Minnesota.
    Mr. Faleomavaega. OK. But we don't have--you don't have the 
record of how many people we are talking about here.
    Mr. Black. Yes, we do. I just don't have that on the top of 
my head, sir.
    Mr. Faleomavaega. OK. Well, I don't have it on the top of 
my head, either. Well, thank you.
    Mr. Black. OK.
    Mr. Lujan. I yield back, Mr. Chairman. Thank you.
    Mr. Young. Mr. Kildee, you just arrived. And you will have 
questions for the rest of them, I am sure.
    Mr. Kildee. I may want to submit questions later.
    Mr. Young. For Mr. Black? OK, thank you.
    Mr. Black, first let me say thank you. And for the Members, 
this is a court decision. And whether you believe it was 
equitable or not, it was a court decision by the tribal 
council. I believe there is 12 members on that council.
    Mr. Black. Yes, sir.
    Mr. Young. Two for each tribe, ten to two the vote was 
taken. Now, I know we are going to have testimony from one 
tribe that doesn't agree with it. But I have lived and worked 
and fostered American Indians, and I love them with all my 
heart. But to get everybody to agree all the time is very 
nearly impossible. My wife and I very rarely agreed, and I was 
right twice in 46 years. Now you think about that a moment.
    But this is a way to distribute the monies as I think were 
done in 1999--is that correct? And it has been approximately 13 
years, 12 or 13 years. And by one group saying no, it deprives 
five groups of saying yes, and they don't get the money 
distributed.
    Now, if there is a working way they can get together and 
say, ``Maybe we can come up with some kind of an agreement,'' I 
would be more willing to look at it. But I plan on moving this 
bill, because it is time. This goes on and on and on, even with 
$8 million worth of interest, which sounds like a lot, but if 
you include inflation and depreciation, they haven't gained any 
money.
    So, I think it is time to do this. That is where I am 
coming from.
    Thank you, Mr. Black, I appreciate it.
    Mr. Black. Thank you.
    Mr. Young. Now I will recognize the members of, I believe, 
Chippewa Tribes. Deschampe, Mr. Norman Deschampe, Erma Vizenor, 
Marge Anderson, and Arthur LaRose. And they are tribes--the 
Chippewa Tribe for Mr. Norman. Ms. Erma is the Earth Band 
Tribe, and Marge Anderson is the Lacs Tribe, and Arthur's is 
Lake Band Tribe. These are four of the tribes of the six that 
are available in this organization. They will be the people 
that testify. So, please take your seats.
    OK. Norman--I think all of you know the rules. Five 
minutes, you see the clock in front of you. If you are really 
doing well, I might let you go, but not very long. And when we 
finally finish with the panel, we will ask questions. Mr. Boren 
will ask the first question and I will work back and forth on 
the aisle. I will be the last one up.
    With that, Norman, you are up first. Turn your mic on.

          STATEMENT OF THE HON. NORMAN W. DESCHAMPE, 
              PRESIDENT, MINNESOTA CHIPPEWA TRIBE

    Mr. Deschampe. Thank you, Mr. Chairman. I am Norman 
Deschampe, I am President of the Minnesota Chippewa Tribe and 
Chairman of the Grand Portage Reservation and Tribal Council.
    Mr. Chairman Leecy and Chairwoman Diver from Bois Forte and 
Fond du Lac couldn't be here today, but they have submitted 
testimony for the record.
    This is the second time I have testified in the House of 
Representatives about the Nelson Act claims distribution. In 
2008, I testified in favor of a bill that would have 
distributed the Nelson Act claims award in a manner consistent 
with the decision of the tribal governing body. Today I testify 
in favor of H.R. 1272 because it also allocates the funds in 
the manner decided by the Tribal Executive Committee. When I 
was here in 2008, it became clear that we were at an impasse, 
that compromise was necessary to achieve the distribution of 
the funds. We spent the next sixteen months discussing 
alternatives and ending up with the allocation in H.R. 1272.
    Under our Constitution, it is the responsibility of the 
Tribal Executive Committee to allocate funds belonging to the 
Tribe as a whole to the various reservations. Although it would 
be nice to have a unanimous vote on all decisions, the majority 
rules and this was a 10-2 decision. The White Earth, Bois 
Forte, Grand Portage, Mille Lacs and Fond du Lac Bands support 
this formula.
    The money that has been held in a trust account for the 
Minnesota Chippewa Tribe since 1999 is a result of claims 
arising under the Nelson Act of 1889. The funds belong to the 
Minnesota Chippewa Tribe and a brief historical background may 
be useful to understand how that came to be. Between 1847 and 
1873, there were various treaties, acts and executive orders 
that created reservations for the sole use of different 
Chippewa bands in Minnesota. In that process, the United States 
accepted cessions from one or more separate bands and those 
bands received compensation for those lands.
    For example, in 1854 the Lake Superior Bands ceded 
approximately five (5) million acres--essentially the Arrowhead 
region of Minnesota--to the United States, and reservations 
were created for the Minnesota bands which joined in that 
cession: Grand Portage, Fond du Lac and Bois Forte. Later, when 
the Indian Claims Commission awarded additional compensation 
because the United States paid too little for the land, it was 
the eleven Lake Superior Bands--the three in Minnesota and 
others in Wisconsin and Michigan--that received that money.
    The Nelson Act was different. The Nelson Act of 1889 
represented a fundamental change in how the Federal Government 
dealt with Chippewa Bands. In 1938 the Court of Claims 
discussed the impact of the Nelson Act and observed that the 
bands ceded their separate reservations and agreed to 
participate on an equal basis in the benefits to be derived 
from doing so.
    In other words, like it or not, our ancestors agreed that 
the reservation lands ceded were to be disposed of for the 
common good, that the lands ceded were tribal lands, and that 
proceeds from their sale would be tribal.
    Looking back on it more than a century later, we may have 
different views of the wisdom of that decision or whether 
tribal choices were freely made, but that was the reality of 
what happened under the Nelson Act. Today, we are dealing with 
the reality that the funds we were awarded in our Nelson Act 
claims are tribal funds to be distributed pursuant to 
legislation that respects our sovereignty and Constitution.
    At the bottom line, the amount that we settled for was an 
amount that belongs to us as a whole, as the entity that 
brought the claim, prosecuted the claim, and settled the claim. 
H.R. 1272 will authorize the distribution of that claim in 
accordance with the tribal decision on allocation.
    I am going to read the last paragraph of Resolution 14609, 
which approves the distribution formula in H.R. 1272. It says, 
``Be it further and finally resolved that the President of the 
Tribal Executive Committee is instructed to execute such 
documents and perform other such tasks as are necessary or 
desirable to implement this resolution.''
    This is tribal law. And I urge you to move forward with 
H.R. 1272 to finish what began decades ago. Thank you.
    [The prepared statement of Mr. Deschampe follows:]

      Statement of The Honorable Norman W. Deschampe, President, 
                        Minnesota Chippewa Tribe

    Mr. Chairman and Members of the Committee:
    I am Norman Deschampe, President of the Minnesota Chippewa Tribe 
and Chairman of the Grand Portage Tribal Council. This is the second 
time I have testified in the House of Representatives about the Nelson 
Act claims distribution. In 2008, I testified in favor of a bill that 
would have distributed the Nelson Act claims award in the manner 
consistent with the decision of the tribal governing body. Today, I 
testify in favor of H.R. 1272 because it also allocates the funds in 
the manner decided by the Tribal Executive Committee (TEC).
    When I was here in 2008, it became clear that we were at an 
impasse--that compromise was necessary to achieve the distribution of 
the funds. We spent the next sixteen (16) months discussing 
alternatives and ended up with the allocation in H.R. 1272.
    Under our Constitution, it is the responsibility of the Tribal 
Executive Committee to allocate funds belonging to the Tribe as a whole 
to the various Reservations. Although it would be nice to have a 
unanimous vote on all decisions, the majority rules and this was a 10-2 
decision. The White Earth, Bois Forte, Grand Portage, Mille Lacs and 
Fond du Lac Bands support this formula.
    The money that has been held in a trust account for the Minnesota 
Chippewa Tribe since 1999 is the result of claims arising under the 
Nelson Act of 1889. The funds belong to the Minnesota Chippewa Tribe 
and a brief historical background may be useful to understand how that 
came to be.
    Between 1847 and 1873, there were various treaties, acts and 
Executive Orders that created reservations for the sole use of 
different Chippewa Bands in Minnesota. In that process, the United 
States accepted cessions from one or more separate Bands and those 
Bands received compensation for those lands. For example, in 1854 the 
Lake Superior Bands ceded approximately five (5) million acres--
essentially the Arrowhead region of Minnesota--to the United States and 
reservations were created for the Minnesota Bands which joined in that 
cession: Grand Portage, Fond du Lac and Bois Forte. Later, when the 
Indian Claims Commission awarded additional compensation because the 
United States paid too little for the land, it was the eleven (11) Lake 
Superior Bands--the three in Minnesota and others in Wisconsin and 
Michigan--that received that money.
    The Nelson Act was different. The Nelson Act of 1889 represented a 
fundamental change in how the federal government dealt with the 
Chippewa Bands. In 1938 the Court of Claims discussed the impact of the 
Nelson Act and observed that ``the bands [ceded] their separate 
reservations'' and agreed to ``participate on an equal basis in the 
benefits to be derived from doing so.'' In other words, like it or not, 
our ancestors agreed that the reservation lands ceded were to be 
disposed of for the common good--that the lands ceded were tribal lands 
and that the proceeds from their sale would be tribal.
    Looking back on it more than a century later, we may have different 
views of the wisdom of that decision or whether tribal choices were 
freely made, but that was the reality of what happened under the Nelson 
Act. Today, we are dealing with the reality that the funds we were 
awarded in our Nelson Act claims are tribal funds to be distributed 
pursuant to legislation that respects our sovereignty and Constitution.
    At the bottom line, the amount that we settled for was an amount 
that belongs to us as a whole--as the entity that brought the claim, 
prosecuted it, and settled it. H.R. 1272 will authorize the 
distribution of that claim in accordance with the Tribal decision on 
allocation.
    Next, I want to assure you that the Tribal Executive Committee has 
considered the Leech Lake objections to any distribution that does not 
give them the lion's share of the award. I am sure you will hear that 
Leech Lake believes that because the greatest amount of damage occurred 
at Leech Lake, it should get the greatest amount of the settlement. The 
problem with that argument is that it is only speculation that damages 
of that amount occurred. First, there never was a court order or 
finding that a specific percentage of the claimed damages were suffered 
on a given Reservation. Second, the courts had already ruled that the 
United States was not obligated to do a band-by-band accounting. Third, 
this settlement included claims for both inadequate compensation and 
for a failure to spend what was collected for the benefit of the 
Chippewa. We never split the settlement into percentages for any 
purpose because we had no factual basis for such a division. And, 
finally, it is literally impossible to divide up the award based on 
Leech Lake's theory because that was an appraiser's estimate of a 
timber value--not of damages. The damages were the difference between 
what it was worth and what the United States sold it for and that 
number was never calculated in the litigation.
    The time has come to finish what began decades ago. I urge you to 
move forward with H.R. 1272.
                                 ______
                                 

                     Nelson Act Settlement Timeline

January 14, 1889--Nelson Act enacted; Minnesota Chippewa Indians 
        deprived of lands and timber resulting in a loss of millions of 
        dollars.
1936--The Minnesota Chippewa Tribe (MCT) organized as sovereign, 
        federally-recognized tribe under the Indian Reorganization Act.
1948, 1951--The MCT filed lawsuits against the U.S. government based on 
        damages from the 1889 Nelson Act land sale program.
May 26, 1999--U.S. government and the MCT settled for $20 million.
June 22, 1999--Full settlement amount was transferred to the Department 
        of the Interior and placed in trust for the MCT.
October 1, 2009--The Tribal Executive Committee (TEC) of the MCT 
        approved its settlement distribution plan by a democratic vote 
        of 10-2.
2011--House and Senate introduced bipartisan legislation to approve the 
        MCT settlement distribution plan.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3149.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3149.004
                                 
                                 __
                                 
    Mr. Young. Thank you very much for that--Norman, for that 
testimony. I really do appreciate it.
    Erma, you are next.

              STATEMENT OF THE HON. ERMA VIZENOR, 
                  CHAIRWOMAN, WHITE EARTH BAND

    Ms. Vizenor. Thank you, Chairman Young, Ranking Member 
Boren, members of this important Committee. I am Erma Vizenor, 
Chairwoman of the White Earth Reservation Tribal Council. Thank 
you for holding this hearing, and for the opportunity to speak 
to you today on this very important issue for the White Earth 
Tribal Members, and for all Tribal Members of the Minnesota 
Chippewa Tribe.
    I want to take a moment to thank Congressman Peterson and 
Congressman Chip Cravaack for their tireless efforts to move 
this important issue forward by cosponsoring H.R. 1272. We are 
very appreciative of those efforts. As you know, all the bands 
involved in this decision are located in their two 
congressional districts.
    Since President Deschampe of the Minnesota Chippewa Tribe 
has already provided an excellent background to the suit that 
eventually brought this distribution, I am going to focus my 
comments on several areas that are important to the discussion 
as the Committee considers this bill.
    The White Earth Band is the largest of the six bands that 
comprise the Minnesota Chippewa Tribe. The enrolled members of 
the White Earth Band make up 50 percent of the enrollment of 
the Minnesota Chippewa Tribe. The White Earth Band and the 
other four Minnesota Chippewa Tribe bands that together support 
the passage of H.R. 1272 account for approximately 80 percent 
of the Minnesota Chippewa Tribe enrollment.
    I want to emphasize to the Committee again the Tribal 
Executive members of the Minnesota Chippewa Tribe that voted to 
support this distribution plan comprise 80 percent of the 
enrolled members of the Minnesota Chippewa Tribe.
    The issue has been raised the present judgment fund was 
intended to be distributed to the six Minnesota Chippewa bands 
according to the degree of damage sustained by each 
reservation. However, the stipulation for settlement executed 
by the Minnesota Chippewa Tribe and the United States is 
completely silent on the issue of the distribution of 
settlement proceeds.
    There is no hint in the stipulation for settlement proceeds 
would be distributed according to the relative damages 
sustained at each of the six Minnesota Chippewa Tribe 
reservations. There was never an agreement between the six 
Minnesota Chippewa Tribe bands the judgment fund would be 
distributed according to the degree of damage sustained by each 
reservation.
    The White Earth Band--the White Earth Reservation also 
sustained substantial damages because of the United States 
Government's mismanagement of land and timber sales pursuant to 
the Nelson Act. In fact, the White Earth Reservation lost four 
full townships of land amounting to approximately 90,000 acres 
of land, among other parcels. Nevertheless, the White Earth 
Band recognizes that the beneficiaries of the proceeds from the 
present Nelson Act settlement belong to the Chippewa Indians of 
Minnesota, and not to individual bands. Reaching this 
distribution plan has been a painful process for all of us.
    Shortly following the judgment fund being deposited into 
the account in the late 1990s, the Bureau of Indian Affairs 
asked members and their staff to complete results of research 
pursuant to the Agency's responsibility through the Judgment 
Funds Act. The BIA personnel assigned--the complete report 
determined the present judgment award should be awarded on a 
per capita distribution. White Earth Band, therefore, has solid 
support rooted in the congressional intent of the Nelson Act--
claim 50 percent of the present judgment funds.
    Four years ago, we came to this Committee supporting a bill 
that supported the BIA results of research. After listening to 
each band's testimony, the Committee at that time instructed us 
to go home and to reach an agreement. Although it took several 
years, that is exactly what we tried to do.
    The White Earth Band decided, following that hearing, 
rather than rigidly clinging to the results of research 
distribution formula that was certain to be rejected by the 
other five bands, we would work together with the other bands 
and make our compromises in a position and an effort to bring 
closure to this matter. It was far too important to our people 
not to do so.
    In fact, we believe we have offered five different 
compromise plans to the MCT prior to agreement by the majority 
of this plan, which is the basis of this important bill.
    In closing, this method of distributing the settlement 
funds that is embodied in H.R. 1272 is the most equitable to 
the intended beneficiaries of the Nelson Act. And I plead with 
this Committee to enact H.R. 1272 into law.
    We thank you for holding this hearing, listening to the 
support of 80 percent of the Minnesota Chippewa Tribe people.
    [The prepared statement of Ms. Vizenor follows:]

 Statement of Chairwoman Erma J. Vizenor, White Earth Band of Ojibwe, 
                         White Earth, Minnesota

    Honorable Chairman Don Young and members of this Committee, I am 
Erma J. Vizenor, the Chairwoman of the White Earth Reservation Tribal 
Council. Thank you for the opportunity to provide testimony to your 
Committee with respect to H.R. 1272.
    H.R. 1272 provides for the distribution of the judgment awarded to 
the Minnesota Chippewa Tribe in 1999 in Docket Nos. 19 and 188 in the 
United States Court of Federal Claims. The governing body of the 
Minnesota Chippewa Tribe has voted to distribute the judgment funds. On 
behalf of the White Earth Nation, the largest of the six bands that 
comprise the Minnesota Chippewa Tribe, I respectfully request that H.R. 
1272 be approved. The bill is sponsored by Congressmen Collin Peterson 
and Chip Cravaack, and the bill reflects the decision of the governing 
body of our sovereign tribal government.
The Unique Status of the Minnesota Chippewa Tribe
    Each of the six constituent bands of which the Minnesota Chippewa 
Tribe is comprised is a separate federally-recognized Indian tribe. 
Additionally, the Minnesota Chippewa Tribe itself is a federally-
recognized Indian tribe. The Minnesota Chippewa Tribe (``MCT'') was 
formed under the Indian Reorganization Act in 1936, and its 
constitution was approved by the Secretary of the Interior. The MCT 
revised its constitution in 1964, and such revised constitution was 
approved by the Secretary of Interior. Pursuant to the revised 
constitution, the governing body of the MCT is the Tribal Executive 
Committee (``TEC''). Each of the six constituent bands of the MCT has 
equal representation on the TEC with two seats, with a total of twelve 
members. The constitution authorizes the TEC to act by majority vote.
The Minnesota Chippewa Tribe Brought the Original Claims and Ultimately 
        Settled the Litigation
    The Minnesota Chippewa Tribe was the only plaintiff in Docket Nos. 
19 and 188 before the Indian Claims Commission. After the Indian Claims 
Commission ceased to exist, the Tribe's claims in these dockets were 
transferred to the United States Court of Federal Claims, where the 
Tribe remained the only plaintiff in the case. The Tribe ultimately 
resolved its claims by entering into a settlement agreement with the 
United States. The Tribe and the United States were the only parties to 
the settlement agreement.
    It is important to note that the many decisions to undertake, 
finance and prosecute the litigation, and to negotiate, reach and 
approve the settlement agreement, were all made by the TEC on behalf of 
the Tribe. It is also important to note that the Court specifically 
recognized and affirmed the TEC's constitutional authority to act on 
behalf of the Tribe before approving the settlement agreement.
    This is confirmed by the key steps leading to entry of the final 
judgment in the case.
    First, on July 1, 1998, the TEC enacted Resolution 01-99, which 
approved the negotiated settlement of the Tribe's claims. The vote was 
6 to 3, with 10 members present.
    Second, on May 21, 1999, the Tribe and the United States filed a 
Joint Motion and Stipulation for Entry of Final Judgment in the Court 
of Federal Claims. The stipulation called for the Court to enter 
judgment in the amount of $20,000,000 ``in favor of plaintiff Minnesota 
Chippewa Tribe.'' The parties submitted the TEC resolution, which 
reflected the 6 to 3 vote, to the Court in support of their motion.
    Third, the Court found that ``[t]he Tribal Executive Committee has 
the constitutional authority to enter into the proposed settlement on 
behalf of the Minnesota Chippewa Tribe,'' and that the TEC resolution 
approving the settlement (along with the signature of the Tribe's 
attorney on the stipulation) was ``appropriate and sufficient evidence 
of acceptance by the Tribe of the settlement.''
    Fourth, on May 26, 1999, the Court approved the settlement and 
directed the Clerk to enter judgment ``pursuant to the [parties'] 
stipulation.'' Judgment was entered for ``plaintiff,'' the Minnesota 
Chippewa Tribe.
    Finally, in accordance with the Court's judgment, $20,000,000 was 
deposited into a trust fund account, creating the judgment fund. Under 
federal law, the sole beneficiary of the judgment fund is the Minnesota 
Chippewa Tribe.

The Tribe Approved a Distribution Plan for the Judgment Fund
    The Tribe's constitution authorizes the TEC to make decisions to 
administer, expend and apportion funds within the control of the Tribe. 
Each band of the TEC was fully involved in the many debates over a 
period of several years over the appropriate distribution of the 
judgment fund.
    On October 1, 2009, the TEC enacted Resolution No. 146-09, which 
approved a plan to distribute the Tribe's judgment funds and requested 
Congress to authorize the distribution in the manner described. The 
resolution was approved by five of the six bands, and reflects the 
carefully considered and legally binding decision of the Tribe. H.R. 
1272 would authorize the distribution of the Tribe's judgment fund in 
accordance with the Tribe's decision.

Federal Law Requires that Congress Enact Legislation to Distribute the 
        Judgment Fund
    The Judgment Fund Distribution Act of 1973 requires the Secretary 
of the Interior to submit a proposed judgment distribution plan to 
Congress no later than one year after the date that funds are 
appropriated to satisfy an Indian Claims Commission judgment. The 
Secretary may obtain an automatic six-month extension to this deadline. 
If a proposed distribution plan is not submitted within the deadline, 
the funds may only be distributed through the enactment of legislation. 
The Secretary did not submit a proposed judgment distribution plan to 
Congress by the statutory deadline. Because the Secretary failed to do 
so, Congress must now enact a statute providing for the distribution of 
the judgment fund.

H.R. 1272 Should be Passed
    The Minnesota Chippewa Tribe has patiently pursued our claims 
arising under the Nelson Act of 1889. We have endured the nearly 60 
years from the time the claims were filed and the judgment funds are 
still not distributed. The governing body of the MCT has voted on the 
proper distribution of our judgment fund. On behalf of the White Earth 
Nation I respectfully request that you enact H.R. 1272, which will 
permit the decision of the sovereign governing body of the Minnesota 
Chippewa Tribe to be carried out.
    Mii gwetch
                                 ______
                                 
    Mr. Young. Thank you. Well done. Thank you very much.
    Marge, you are up next.

             STATEMENT OF THE HON. MARGE ANDERSON, 
                CHIEF EXECUTIVE, MILLE LACS BAND

    Ms. Anderson. Thank you. I am Marge Anderson, Chief 
Executive of the Ojibwe----
    Mr. Young. Is your mic on?
    Ms. Anderson. Thank you. I am here to support H.R. 1272, 
sponsored by our congressman, Chip Cravaack, and Congressman 
Peterson.
    Four years ago this committee told us to go back to 
Minnesota and reach an agreement on distribution. After much 
effort, that is what we have done. We have three principal 
reasons for supporting H.R. 1272.
    Sovereignty and property rights. Congressman Peterson's and 
Cravaack's bill respects the sovereignty and property rights of 
the Minnesota Chippewa Tribe. Under the MCT constitution the 
Chippewa Executive Committee acts by majority vote. And the 
settlement was approved by majority vote of the TEC. 
Appropriately, the vote was then accepted by the Department of 
Justice and the Department of the Interior, and by the Court of 
Federal Claims. It is appropriate that Congress now gives the 
same respect to the Tribe's decision regarding the distribution 
of the judgment, as the government gave to the Tribe's decision 
to settle the case. If the government does not recognize the 
sovereign authority and property rights here, it is a problem 
not just for the Minnesota Chippewa Tribe and its six 
constituent bands, but for all tribes across this country.
    Number two is history. In the early 1980s, my predecessor, 
Chief Executive Arthur Gahbow, testified in front of this very 
Committee on dividing up another judgment obtained by the 
Minnesota Chippewa Tribe in another Indian Claims Commission 
case. He argued that the special unfairness of our band 
requires unique consideration, was told that he needed to go 
back to Minnesota, and the decision was up to the Minnesota 
Chippewa Tribe, not Mille Lacs. MCT acted then and now, and 
this decision should be honored.
    Resolution. If we do not do this today, this decision will 
linger for a generation, or even longer. There has been 
countless hours and diverted precious resources to finally 
finalize a strong distribution plan embraced by five of the six 
bands, and supported by the huge majority of members. In 2008, 
you told us to bring you an agreement, and you would embrace 
it. We have it in H.R. 1272, and we ask you to pass without 
greater delay.
    The bands of the Minnesota Chippewa Tribe worked together 
on virtually all issues. Our story is a story of survival. It 
is also a story of occasional differences. Each of the six 
bands have separate stories to tell of the injustices, the 
hardships, and the terrible insults caused by the Nelson Act. 
Our elders, our histories, and our experts are persuasive as to 
the real tragedies caused by each of the bands. We all have 
maps showing huge losses to our people. Some of us look at the 
sheer numbers of people, some at land, some at trees, some at 
dollars taken by agency crooks. While these differences are 
real, we have resolved them with close to full consensus.
    We discussed proposal after proposal. Ultimately, we voted. 
Five of the six bands are in agreement, representing 80 percent 
of our members. The Minnesota Chippewa Tribe has spoken as a 
sovereign, self governing Indian Nation.
    The Natural Resources Committee of the U.S. House of 
Representatives--truly respect sovereignty, self-determination, 
and self-governance. Indeed, it has given them life and meaning 
in modern times. Now here, after too much time, too many tears, 
and too much time wasted, and--please end this.
    After a century-and-a-half of losses, after six decades of 
litigation, and after dozens of years of our money in a dusty 
account at Interior, it is time. Now here, give our people our 
money and our sovereign plan.
    I respectfully request that the Committee do the right 
thing. The right thing is to respect the sovereignty of the 
Tribe and pass H.R. 1272.
    [The prepared statement of Ms. Anderson follows:]

             Statement of Chief Executive Marge Anderson, 
              Mille Lacs Band of Ojibwe, Onamia, Minnesota

    Mr. Chairman, Members of the Committee, I am Marge Anderson, Chief 
Executive of the Mille Lacs Band of Ojibwe Indians, located in east 
central Minnesota. Thank you for the opportunity to submit testimony to 
your Committee.
    I am here today on behalf of the Mille Lacs Band of Ojibwe 
regarding the distribution of a judgment awarded to the Minnesota 
Chippewa Tribe in Docket Nos. 19 and 188 in the United States Court of 
Federal Claims in 1999. After over twelve years, it is time these 
monies went to the people who were harmed. Four years ago this 
Committee told us to go back to Minnesota and reach an agreement on 
distribution. After much effort, that is what we have done. The Tribe 
has voted to distribute the judgment, and I support the Tribe's 
sovereign authority and property right to determine the distribution of 
the judgment awarded to the Tribe. The Tribe's determination is 
reflected in H.R. 1272, a bill sponsored by our Congressman, Chip 
Cravaack, and Congressman Collin Peterson.

THE MILLE LACS BAND SUPPORTS H.R. 1272.

The Minnesota Chippewa Tribe
    The Mille Lacs Band of Ojibwe is one of the six constituent bands 
which comprise the Minnesota Chippewa Tribe. Each of the constituent 
bands is, in its own right, a distinct sovereign government. This fact 
is reflected in the bands' Self-Governance Compacts with the United 
States Department of the Interior and the Department of Health and 
Human Services.
    However, the Minnesota Chippewa Tribe is, itself, also a sovereign 
entity. It was formed in 1936 under the Indian Reorganization Act, and 
its constitution was approved by the Secretary of the Interior. Under 
the Tribe's revised constitution, approved by the Secretary in 1964, 
the governing body of the Tribe is the Tribal Executive Committee 
(TEC). Each constituent band has equal representation on the TEC, with 
two seats each. The constitution authorizes the TEC to act by majority 
vote.
    While this structure is unusual in Indian Country, it has been in 
place for more than 70 years. Just as the Court made clear in approving 
the settlement, now, here, in providing for the distribution of the 
judgment in Docket Nos. 19 and 188, Congress should respect the 
sovereignty of the Tribe.

The Judgment Fund
    The Minnesota Chippewa Tribe was the only plaintiff in Docket Nos. 
19 and 188 before the Indian Claims Commission (See Order attached). 
After the Indian Claims Commission ceased to exist, the cases were 
transferred to the United States Court of Federal Claims, where the 
Tribe remained the only plaintiff. The Tribe ultimately resolved its 
claims by entering into a settlement agreement with the United States. 
The Tribe and the United States were the only parties to the settlement 
agreement.
    It is important to note that the many decisions to undertake the 
litigation, finance and prosecute the litigation, negotiate, reach and 
approve the settlement all were made by the TEC. It is also important 
to note that the Court specifically recognized and affirmed the TEC's 
constitutional authority to act on behalf of the Tribe before approving 
the settlement agreement.
    The TEC approved the settlement of its claims on July 1, 1998, when 
it enacted Resolution 01-99. The vote was 6 to 3, with 10 members 
present.
    On May 21, 1999, the Tribe and the United States filed a Joint 
Motion and Stipulation for Entry of Final Judgment in the Court of 
Federal Claims. The stipulation called for the Court to enter judgment 
in the amount of $20,000,000 ``in favor of plaintiff Minnesota Chippewa 
Tribe.''
    The TEC resolution reflecting this vote was submitted to the Court 
in support of the parties' motion. The Court found that ``[t]he Tribal 
Executive Committee has the constitutional authority to enter into the 
proposed settlement on behalf of the Minnesota Chippewa Tribe,'' and 
that the TEC resolution approving the settlement (along with the 
signature of the Tribe's attorney on the stipulation) was ``appropriate 
and sufficient evidence of acceptance by the Tribe of the settlement.''
    On May 26, 1999, the Court approved the settlement and directed the 
Court to enter judgment ``pursuant to the [parties'] stipulation.'' 
Judgment was entered for ``plaintiff,'' the Minnesota Chippewa Tribe.
    In accordance with the Court's judgment, $20,000,000 was deposited 
into a trust fund account, creating the judgment fund. Under federal 
law, the sole beneficiary of the judgment fund is the Minnesota 
Chippewa Tribe.
    Under the Tribe's constitution, the TEC is authorized to make 
decisions to administer, expend and apportion funds within the control 
of the Tribe. On October 1, 2009, the TEC enacted Resolution No. 146-
09, which approved a plan to distribute the funds and requested 
Congress to authorize the distribution in the manner described.

Need for Legislation
    The Judgment Fund Distribution Act of 1973 requires the Secretary 
of the Interior to submit a proposed judgment distribution plan to 
Congress no later than one year after the date that funds are 
appropriated to satisfy an Indian Claims Commission judgment. The 
Secretary may obtain an automatic six-month extension to this deadline. 
If a proposed distribution plan is not submitted within the deadline, 
the funds may only be distributed through the enactment of legislation.
    If the Secretary of the Interior had accepted the September 1999 
decision of the Minnesota Chippewa Tribe and submitted a proposed 
judgment fund distribution plan to Congress by June 2000, the plan 
would have gone into effect automatically at about the same time the 
106th Congress adjourned for the August 2000 legislative recess. 
Because the Secretary failed to do so, Congress must now enact a 
statute providing for the distribution of the judgment fund.

Reasons for Supporting H.R. 1272
    We have three principal reasons for supporting H.R. 1272:
        1.  Sovereignty and Property Rights. Congressmen Peterson's and 
        Cravaack's bill respects the sovereignty and property rights of 
        the Minnesota Chippewa Tribe.

           When the Tribe was considering whether to approve the 
        settlement, some bands voted against it. However, under the 
        constitution of the Minnesota Chippewa Tribe, the Tribal 
        Executive Committee acts by majority vote and the settlement 
        was approved by majority vote of the TEC. Appropriately, the 
        vote was then accepted by the Department of Justice and the 
        Department of the Interior and by the Court of Federal Claims. 
        It is appropriate that Congress, now, gives the same respect to 
        the Tribe's decision regarding the distribution of the judgment 
        as the Government gave to the Tribe's decision to settle the 
        case.

           If the Minnesota Chippewa Tribe is truly a government, and 
        it is, its votes cannot be overruled on matters under its 
        jurisdiction, including the distribution of a fund awarded to 
        the Tribe. The defendant in a lawsuit cannot agree to settle a 
        case by paying a sum of money to the plaintiff and then, when 
        the plaintiff determines how the money is to be distributed, 
        disregard that decision and pay the money to someone else. This 
        would be a taking. Moreover, this result would be especially 
        galling considering that it was the disregard, incompetence and 
        misfeasance of the government that caused the very real harm to 
        the Tribe and its members. Further, it would seemingly void the 
        settlement and open the government to further, compounded 
        litigation.

           In short, the Mille Lacs Band is simply requesting that the 
        federal government respect the decision of the Minnesota 
        Chippewa Tribe regarding the distribution of a judgment awarded 
        to the Tribe. If the government does not recognize the 
        sovereign authority and property rights here, it is a problem 
        not just for the Minnesota Chippewa Tribe and its six 
        constituent bands, but for all tribes across this country.

        2.  History. In the early 1980s, my predecessor, the Chief 
        Executive of the Mille Lacs Band, Arthur Gahbow, testified in 
        front of this very Committee on dividing up another judgment 
        obtained by the Minnesota Chippewa Tribe in another Indian 
        Claims Commission case. He argued that the special unfairness 
        to our Band required unique consideration. He was told by the 
        late Congressman Bruce Vento that he needed to go back to 
        Minnesota, and that the decision was up to the Minnesota 
        Chippewa Tribe, not Mille Lacs.

           There are matters we undertake as a Band, such as the Mille 
        Lacs Band Self-Governance Compact with the Department of the 
        Interior, and there are matters we undertake as a Tribe, such 
        as the litigation concerning MCT lands and properties. The 
        claims at issue here were brought by the Tribe and settled by 
        the Tribe, and the judgment was awarded to the Tribe. As 
        Congressman Vento said in the 1980s, the distribution of the 
        award is up to the Tribe.

           This important Committee and its leaders have traditionally 
        respected the sovereignty of Indian Nations. In fact, it has 
        often single-handedly spoken truth to power in this city on the 
        issue of sovereignty. Often it has had to explain it, help 
        employ it, and sometimes celebrate it. We ask you to do so 
        again, here, now.

         3.  Resolution. This is a moment in history when we can 
        resolve a longstanding conflict. If we do not do this today, 
        this decision will linger for a generation, or even longer. 
        That would not be responsible governance. We have spent 
        countless hours and diverted precious resources to finalize a 
        strong distribution plan, embraced by five of the six bands and 
        supported by a huge majority of members. We have the common 
        goal of wanting to do good things on our reservations, and this 
        money from past harms can help. Today, we can and should move 
        forward. In 2008, you told us to bring you an agreement and you 
        would embrace it. We have in H.R. 1272 and we ask you to pass 
        it without greater delay.

CONCLUSION
    The bands of the Minnesota Chippewa Tribe work together on 
virtually all issues--law enforcement, child welfare, economic 
development, and more. We have a long, distinguished and unified 
history together. Ours is a story of survival. It is also a story of 
occasional differences. Each of the six bands has separate stories to 
tell on the injustices, the hardships, the terrible insults caused by 
the Nelson Act. Our elders, our histories and our experts are 
persuasive as to the real tragedies caused to each of the Bands. Some 
of us look at sheer numbers of people, some at land, some at trees, 
some at dollars taken by Agency crooks. While these differences are 
real, we have resolved them with close to unanimity. We did so after 
debating and discussing these matters at length. We discussed proposal 
after proposal. Ultimately, we voted. Five of six bands are in 
agreement, representing eighty percent of our members. The Minnesota 
Chippewa Tribe has spoken as a sovereign, self-governing tribal nation.
    As members of the Executive Committee of the MCT, and separately as 
leaders of six sovereign tribes, we have devoted thousands of hours and 
countless tribal resources to this distribution plan now before 
Congress. We know the facts, the history, the legal theories and the 
injustices and the horrible harms done to our people that are the basis 
of our claims. We lived through the litigation, undertook the 
negotiations, and finally embraced a settlement. We are, like you, 
elected by our people. And daily we are asked to make decisions, face 
very real, and sometimes life or death, problems and needs that stagger 
human imagination and certainly tribal resources.
    Now, here, we have our MCT funds, our peoples' funds, languishing 
in a trust account in the very agency that over a century ago did the 
terrible harm that led to the claims. Now, here, we must get the assent 
of the Congress that, at the least, allowed the agency to do the harm. 
It is an irony and a legacy of paternalism that should give way to 
sovereignty, self governance, self determination and respect.
    The Natural Resources Committee of the U.S. House of 
Representatives has come to truly respect concepts like sovereignty, 
self determination and self governance; indeed, it has given them life 
and meaning in modern times. Now, here, after too much harm, too many 
tears, and too much time, wasted work and lost resources, please end 
this. After a century and half of losses, after six decades of 
litigation, and after a dozen years of our money in a dusty account at 
Interior, it is time. Now, here, give our people. . ..our money. . ..in 
our sovereign plan.
    On behalf of the Mille Lacs Band, we thank our two Congressmen and 
our two Senators for respecting tribal sovereignty. We thank this 
Committee and you, Mr. Chairman and Mr. Ranking-Member, for your long-
standing respect for sovereignty. I respectfully request that the 
Committee do the right thing.
    The right thing to do is to respect the sovereignty of the Tribe 
and pass H.R. 1272.
    Mii gwetch.
                                 ______
                                 
    Mr. Young. Thank you, Marge.
    Arthur?

        STATEMENT OF THE HON. ARTHUR ``ARCHIE'' LaROSE, 
              CHAIRMAN, LEECH LAKE BAND OF OJIBWE

    Mr. LaRose. Good afternoon, Chairman Young, Ranking Member 
Boren, and members of the Subcommittee. My name is Archie 
LaRose, and I am the Leech Lake Reservation Chairman. On behalf 
of my people watching and listening back at home, thank you for 
giving me this opportunity.
    You have heard some of the history behind the settlement. I 
am here to tell the rest of the story. Leech Lake suffered 68.9 
percent of the damages. H.R. 1272 does not reflect the harm 
done to my people. That is why we strongly oppose the bill.
    The story starts with the establishment of the Leech Lake 
Reservation. My ancestors entered into treaties and executive 
orders from 1855 to 1874. These treaties promised that 
reservation would be our permanent homelands forever.
    Back in 1874 our closed reservation consisted of 640,000 
acres. We owned it all. Under the Nelson Act, our reservation 
was cut to less than 40,000 acres. I have a map here that 
compares our treaty reservation. It is up on both TV screens. I 
have a map here that compares our treaty reservation with our 
reservation today. Our current trust lands are highlighted in 
red. You can barely see them. They total less than 30,000 
acres. This gives you an idea of the damages that the Nelson 
Act inflicted on our reservation.
    I am here today, more than a century later, to ask the 
Committee to right this wrong, and not compound our problem 
under this bill. The bill directs the Secretary to distribute 
the settlement fund based on a proposal by the Minnesota 
Chippewa Tribe. It does not honor sovereignty, it ignores 
fairness, and it only satisfies the four smaller bands.
    Congress passed the Indian Tribal Judgment Funds Act to 
take politics out of the equation. This is a court settlement. 
But unless we know who was harmed, Congress is blindly giving 
settlement funds that belong to one tribe to other tribes.
    The BIA did its job under this Act. In 2001, the BIA 
studied the case and found that there is no compelling reason 
to give preferential treatment to the four smaller bands. The 
four smaller bands control the MCT, and they want to collect 
payment for harm suffered by the Leech Lake Reservation.
    The MCT hired an expert to justify the settlement amount. 
This expert spent more than six years, and the MCT paid him 
more than $1 million to study the damages. The expert found 
that Leech Lake suffered 68.9 percent of the damages. The 
amounts of damages for the other bands ranged from less than 1 
percent to 12 percent. The MCT used this report to advance the 
settlement.
    However, now the MCT wants to sweep this report under the 
rug. DOJ also filed an expert property list with the court. 
This list shows that most lands from the settlement came from 
the Leech Lake Reservation to form the Chippewa National 
Forest, 600,000 acres. Based on these expert appraisals, the 
court based a settlement on damages.
    Unfortunately, damages aren't considered in the bill before 
the Subcommittee today. Instead of asking who was harmed, the 
bill looks to an MCT resolution that would give bands who 
suffered as little as .09 percent of the damages the same share 
as Leech Lake, who suffered 68.9 percent of the damages.
    In addition, Grand Portage, Fond du Lac, and Bois Forte 
relinquished all claims to our lands involved in the settlement 
in the 1854 treaty. Also, White Earth received 10,000 acres of 
land and $6.6 million in compensation under the Nelson Act in 
1985. None of the other five bands shared in this compensation.
    Our reservation was established long before the MCT was 
even formed. Likewise, the Nelson Act and the damages that it 
inflicted occurred long before the MCT existed. Federal courts 
have also ruled that the MCT acts only in a representative 
capacity. The MCT is not a beneficiary. They have no treaties. 
Federal courts in past Nelson Act claims made awards to the 
individual bands based on which of the treaty bands had a legal 
treaty right to the settlement funds.
    If Congress is going to ignore the Judgment Funds Act, it 
should at least look to those cases. It makes no sense to now 
completely ignore damages. We have been trying to negotiate 
with the other bands. However, if this bill is enacted without 
a compromise, Leech Lake will sue the government to stop this 
unjust distribution.
    Mr. Chairman, just as you raised concerns with the unfair 
distribution in the Cobell settlement, this bill gives the 
property of Leech Lake to the other bands. As a result, the 
bill violates Congress's constitutional obligation to protect 
our property and treaty rights. This bill disrespects Leech 
Lake's sovereignty. It compounds the injustice done to our 
treaties, our lands, and our people. In our view, a consensus 
position is the only way to resolve this dispute.
    Thank you for this opportunity. Mii gwetch.
    [The prepared statement of Mr. LaRose follows:]

         Statement of The Honorable Arthur ``Archie'' LaRose, 
                  Chairman, Leech Lake Band of Ojibwe

INTRODUCTION
    Good afternoon Chairman Young, Ranking Member Boren, and Members of 
the Subcommittee. I am Archie LaRose, Chairman of the Leech Lake Band 
of Ojibwe. Thank you for the opportunity to testify on H.R. 1272. This 
bill would direct the Secretary to distribute funds from a 1999 
settlement of a case to resolve claims brought for federal 
mismanagement of funds and undervaluing of lands and timber sold off 
under the 1889 Nelson Act according to a prescribed formula advocated 
by the Minnesota Chippewa Tribe (MCT), which is comprised of the bands 
of Leech Lake, Bois Forte, Fond du Lac, Grand Portage, Mille Lacs, and 
White Earth. All six bands are individual federally recognized Indian 
tribes. Under the formula set forth in H.R. 1272, MCT would be paid 
attorney fees and other expenses first. The Secretary must then 
allocate the remaining funds on a per capita and per band basis. 
Damages inflicted under the Nelson Act to the individual bands, their 
lands, and their treaties, which was the basis for the settlement 
amount of $20 million, is not a consideration in the mandated 
distribution.
    The Nelson Act and the damages that it caused to the treaty-
protected reservations in Minnesota represents yet another sad chapter 
in this Nation's history of dealing with Indian tribes. I agree that 
time has come to put this issue behind us. However, it must be done in 
an equitable and just manner. H.R. 1272 would not accomplish this goal. 
Instead, the bill will compound the injustice that was done to the 
people of the Leech Lake Band of Ojibwe, our Reservation, and our 
Treaties and will only result in additional costly and time-consuming 
litigation.

SUMMARY OF STATEMENT
    H.R. 1272 disregards the sovereignty of the Leech Lake Band of 
Ojibwe and would result in gross injustice to the Band. Respecting 
tribal sovereignty means honoring the position of Leech Lake, not 
sacrificing justice owed it to appease others. H.R. 1272 is based on 
the improper assumption that the Nelson Act dissolved all the bands' 
prior interests in land. While the Nelson Act sought to establish a 
common permanent fund, federal courts have found that the wrongs 
inflicted under the Nelson Act relate back to the individual treaty-
beneficiary bands. Federal courts approved monetary judgments in at 
least 25 Nelson Act-related claims that were brought by the MCT as the 
named plaintiff. The awards were then distributed to the individual 
bands that were the parties to the various treaties that established 
the reservation lands in the first place. In other words, the United 
States has never abrogated the sovereign rights of the Leech Lake Band 
of Ojibwe or transferred its lands or treaty rights at any point to the 
MCT or anyone else as some have suggested. If that were the case, then 
Leech Lake looks forward to sharing in the lucrative gaming revenues of 
the other bands. The MCT has no treaty rights and cannot speak for 
Leech Lake on matters impacting our treaty-protected Reservation.
    Instead of following court precedent of distributing settlement 
funds to the individual bands, H.R. 1272 ignores actual damages 
suffered by individual federally recognized bands, their individual 
treaties, and their reservations. The court-approved settlement amount 
of $20 million was based upon the damages incurred (land and timber 
sold improperly or taken and mismanaged) on each reservation under the 
Nelson Act. The MCT commissioned Wesley Rickard, Inc., as its expert in 
the case to conduct an appraisal of the lands and timber subject to the 
claims. The resulting MCT Comparison Report found that the Leech Lake 
Indian Reservation incurred 68.9% of the damages; Grand Portage 0.9%; 
Mille Lacs 2.40%; Bois Forte 8.60%; White Earth 9%; and Fond du Lac 
10.20%. It would not be fair to allocate the funds based solely upon a 
per capita and per band basis while ignoring damages incurred by each 
band given the settlement amount was based upon damages. The parties 
would not have agreed to the $20 million settlement amount if it had 
not been for the 68.9% of damages suffered by Leech Lake.
    The Indian Tribal Judgment Funds Use or Distribution Act (Judgment 
Funds Act), 25 U.S.C. Sec. 1401 et seq., was enacted to keep politics 
out of federal court settlements. The Act sets forth the procedure to 
handle the distribution of settlements where more than one tribe is 
involved and where they do not agree on a distribution formula. That 
Act governs the distribution of this settlement. The Bureau of Indian 
Affairs (BIA) executed its responsibility under the Judgment Funds Act 
in 2001 and then again in 2007 by submitting a report and draft 
legislation to Congress proposing certain distribution allocations to 
Congress based upon its review of the case, the facts upon which the 
settlement was based, and the legal equities. The BIA's recommendation 
to Congress initially supported a distribution based on damages and per 
capita. The BIA's legal analysis under the Judgment Funds Act found 
``no compelling reason to support a six way split of the fund that 
would result in giving the preferential treatment to the membership of 
the four smaller bands.'' The controlling voice of MCT (the four 
smaller bands) has opposed the BIA's recommendation for the past 
decade. These bands have supported a per band split that would benefit 
them to a greater degree than other alternatives on the table. H.R. 
1272 is their effort to attain the per band split they seek.
    Further, H.R. 1272 mandates payments that are beyond the scope of 
those approved in the Judgment Funds Act. The bill would mandate 
payment to the MCT for costs and interest incurred resulting from the 
MCT's work on ``the distribution of the judgment funds,'' which could 
include lobbying, consulting fees, and other related costs to develop 
and advocate in favor of H.R. 1272. Such work was done in direct 
conflict with the interests of the Leech Lake Band of Ojibwe. Such 
expenditures are not authorized under the Judgment Funds Act.
    To resolve this long-standing dispute, the Leech Lake Tribal 
Council proposed a compromise position that would acknowledge damages 
along with the views of the other bands. A consensus position is the 
only way to achieve the goal of putting the settlement funds in the 
hands of the rightful beneficiaries. We respectfully request that the 
Congress and the Administration facilitate discussion among the six 
bands to develop an equitable solution to this problem.

BACKGROUND/HISTORY
Treaties with the Leech Lake Band of Ojibwe and other Indians of 
        Minnesota
    The United States entered into 43 treaties with the Chippewa 
Indians between 1785 and 1870. The Leech Lake Indian Reservation was 
established through a series of treaties with the United States and 
presidential executive orders. See Treaties of February 22, 1855 (10 
Stat. 1165) & March 19, 1867 (Article I, 16 Stat. 719); Executive 
Orders of October 29, 1873, November 4, 1873, and May 26, 1874. These 
treaties and executive orders promised to make the reserved lands the 
``permanent home'' for the Leech Lake people.

Nelson Act of 1889
    In the 50th Congress, Minnesota Congressman Knute Nelson sponsored 
a bill formally titled, ``An Act for the relief and civilization of the 
Chippewa Indians of Minnesota.'' Congress passed the bill and President 
Cleveland signed it on January 14, 1889. 25 Stat. 642 (Jan. 14, 1889). 
The Act, known as the Nelson Act, is the Minnesota version to the 
failed Dawes Act (also known as the General Allotment Act). Established 
during the federal government's era of Allotment and Assimilation, the 
United States--through the Nelson Act--sought to destroy the governing 
structures of the Minnesota bands, parcel out tribal government lands 
to individual Indians, and open up our reservation timber and lands to 
settlers and private companies in clear violation of existing treaties. 
A primary goal of the Nelson Act was to open up the northern white pine 
forests for lumber companies for logging.
    Section 1 of the Nelson Act provides that, ``in any case where an 
allotment in severalty has heretofore been made to any Indian of land 
upon any of said reservations, he shall not be deprived thereof or 
disturbed therein. . ..'' This provision acknowledges the vested rights 
of the individual Indians to choose land and remain on their 
reservations. The remaining residents, the allotted reservation lands, 
and their tribal governing bodies were not dissolved.
    Section 3 of the Act provided for parcels to be allotted to 
individual Indians. Sections 4 and 5 directed pinelands to be sold at 
public auction to non-Indians. Section 6 directed agricultural lands to 
be sold to non-Indian settlers as homesteads.
    Section 7 of the Act provides:
        ``That all money accruing from the disposal of said lands. . 
        .shall. . .be placed in the Treasury of the United States to 
        the credit of all the Chippewa Indians in the State of 
        Minnesota as a permanent fund. . .and which interest and 
        permanent fund shall be expended for the benefit of said 
        Indians in manner following: One-half of said interest shall. . 
        .be annually paid in cash in equal shares to the heads of 
        families and guardians of orphan minors for their use; and one-
        fourth of said interest shall, during the same period and with 
        the like exception, be annually paid in cash in equal shares 
        per capita to all other classes of said Indians; and the 
        remaining one-fourth of said interest shall, during the said 
        period of fifty years, under the direction of the Secretary of 
        the Interior, be devoted exclusively to the establishment and 
        maintenance of a system of free schools among said Indians, in 
        their midst and for their benefit; and at the expiration of the 
        said fifty years, the said permanent fund shall be divided and 
        paid to all of said Chippewa Indians and their issue then 
        living, in cash, in equal shares.'' (emphasis added.)

Amendments to the Nelson Act/Establishment of the Chippewa National 
        Forest
    In 1900 the League of Women Voters petitioned Congress to protect 
the remaining forestlands surrounding the Leech, Cass, and 
Winnibigoshish Lakes on the Leech Lake Indian Reservation. The Chippewa 
National Forest (CNF), originally named the Minnesota Forest Reserve, 
was established through passage of the Morris Act (June 27, 1902) by 
taking these lands from the Leech Lake Indian Reservation. 
Approximately 75% of the CNF lands are within the treaty boundaries of 
the Leech Lake Indian Reservation.
    The Morris Act amended the Nelson Act, opening 25,000 acres of 
agricultural land to settlement. It also reserved 10 sections and areas 
of Indian land and allotments from sale or settlement and provided for 
the sale of 200,000 acres of pine timber with proceeds to be paid ``to 
the benefit of the Indians.''
    Section 2 of the Morris Act read:
        ``Provided further, That in cutting the timber on two hundred 
        thousand acres of the pine lands, to be selected as soon as 
        practicable by the Forester of the Department of Agriculture, 
        with the approval of the Secretary of the Interior, on the 
        following reservations, to wit, Chippewas of the Mississippi, 
        Leech Lake, Cass Lake, and Winnebigoshish, which said lands so 
        selected shall be known and hereinafter described as `forestry 
        lands,'. . .: Provided further, That there shall be reserved 
        from sale or settlement the timber and land on the islands in 
        Cass Lake and in Leech Lake, and not less than one hundred and 
        sixty acres at the extremity of Sugar Point, on Leech Lake. . 
        .on which the new Leech Lake Agency is now located,. . .and 
        nothing herein contained shall interfere with the allotments to 
        the Indians heretofore and hereafter made. The islands in Cass 
        and Leech lakes and the land reserved at Sugar Point and Pine 
        Point Peninsula shall remain as Indian land under the control 
        of the Department of the Interior.'' (emphasis added.)
    I quote the Morris Act for two reasons. First, this quote 
demonstrates that a majority of Leech Lake's treaty lands were taken 
from it to establish the CNF and to sell its timber. Second, this 
excerpt shows that the U.S. still maintained its government-to-
government relationship with the Leech Lake Band on our Reservation 
even as it was taking our lands in 1902. Today, the Leech Lake Band now 
holds only approximately 4% of our Reservation lands promised by treaty 
and executive order. This amounts to approximately 29,000 acres of 
trust lands, most of which are swamplands that no one wanted to 
purchase. As a result, much of the trust lands within the Leech Lake 
Indian Reservation are swamplands and not suitable for housing, 
infrastructure, or economic development needs. The U.S. Forest Service 
and the state of Minnesota now hold most of the usable lands within the 
boundaries of the Leech Lake Indian Reservation.
    The CNF today has 115 employees and an annual budget of $12.5 
million. It also makes payments to local counties. Fiscal year 2008 saw 
$1.1 million go to the counties. No similar payments are made to the 
Leech Lake Indian Reservation. The Leech Lake Indian Reservation should 
have more than a right to comment on the annual forest plans. The 
Supreme Court has held that the forest and lakes remain our ecosystem 
and remain subject to our treaty hunting, fishing, and gathering 
rights. The Leech Lake Indian Reservation should be given an 
opportunity to engage in self-determination-type contracting with the 
CNF and have a meaningful say in how environment and natural resources 
located within our reservation boundaries are used.
    After the damage caused by the Nelson Act, the Leech Lake Band 
continued to govern the remaining tribal and allotted lands of the 
Leech Lake Indian Reservation. The leaders of the Leech Lake Indian 
Reservation continued to act on a government-to-government basis with 
the U.S. to ensure the protection of our treaty rights and to hold the 
federal government to its trust obligations. Attached to this testimony 
is a photo taken during the 1920's of delegations from the Leech Lake 
Band of Ojibwe and the Shoshone-Bannock Tribes of the Fort Hall Indian 
Reservation during a visit to the White House. In the photograph, the 
tribal delegations are accompanied by BIA Commissioner Charles Burke.
    In 1925, representatives from Leech Lake corresponded with BIA 
Commissioner Burke urging the U.S. to take action to address the wrongs 
committed by the Nelson and Morris Acts. This correspondence includes a 
petition written by Leech Lake tribal leaders to Congress. The petition 
led to the 1926 legislation that authorized the Nelson Act claims to go 
forward in federal court. I'm here today, more than a century after our 
lands were wrongly taken, to ask this Committee to right this wrong--
not exacerbate it as would be done under H.R. 1272.

Establishment of the Minnesota Chippewa Tribe
    The Secretary of the Interior recognized the MCT on July 24, 1936, 
pursuant to the authority granted under the Indian Reorganization Act 
(IRA) long after the 1889 Nelson Act and 1902 Morris Act. Governed by a 
constitution, the MCT's limited powers are delegated to it from the six 
bands. In addition to the Leech Lake Band, the other bands include the 
Bois Forte, Fond du Lac, Grand Portage, Mille Lacs, and White Earth. 
The initial primary purpose of the MCT was to ease the administrative 
burden on the six bands, who had little infrastructure and few 
resources. As will be shown below, the bands entrusted the MCT to bring 
a series of Nelson Act and similar claims on behalf of the treaty 
beneficiary tribes. This was again done for ease of administration and 
so that the bands could hire one attorney as opposed to six. Being 
jointly represented by one attorney does not mean that we agreed to 
commingle settlement proceeds as some have suggested.
    At no time have any of the bands ceded sovereignty or treaty rights 
to the MCT. The individual member bands are separate, federally 
recognized tribal governments. No law or court ruling has taken away 
the Leech Lake Band's sovereignty or acknowledgement as a federally 
recognized tribe. Further, the Chippewa Indians of Minnesota and the 
individual bands are different from the MCT. To say that they are the 
same is like saying the citizens of the United States and the fifty 
states are the same as the governmental body of the United States.

The Leech Lake Band of Ojibwe Today
    The Leech Lake Band of Ojibwe is a federally recognized Indian 
tribe with a long history of relations with the United States. The 
Leech Lake Tribal Council is the governing body of the Leech Lake Band. 
Our existing Reservation consists of 29,717 acres of trust lands, less 
than 4% of the total of our initial Reservation.
    In the early 1990's, Leech Lake contracted with the BIA to operate 
programs as one of ten tribes in a second group allowed into a self-
governance pilot project. Pursuant to Public Law 83-280, the state of 
Minnesota has concurrent criminal jurisdiction over crimes occurring on 
the Reservation. Leech Lake's court system exercises partial criminal 
and full civil jurisdiction over Indians on our Reservation.
    The Leech Lake tribal community consists of approximately 10,000 
enrolled members. We have retained a strong and vibrant culture and 
continue to exercise and protect our treaty rights to hunt, fish, and 
gather on the lands promised as our permanent homelands.
    While our culture and way of life remains strong, our community 
faces high unemployment, concerns with substance abuse, and challenges 
in providing adequate health care and education to our people. A 
glaring gap on our Reservation is the longstanding need to replace the 
Bug-O-Nay-Ge-Shig High School facility, which is administered by the 
Bureau of Indian Education, located in Bena, Minnesota.
    The current High School facility is a metal-clad pole barn, 
formerly used as an agricultural building. One-third of the high school 
facility was destroyed in a gas explosion in 1992. The facility has 
serious structural and mechanical deficiencies and lacks proper 
insulation. The facility does not meet safety, fire, and security 
standards due to the flimsiness of the construction materials, 
electrical problems, and lack of alarm systems. The building lacks a 
communication intercom system, telecommunication technology, and safe 
zones, which puts students, teachers, and staff at great risk in 
emergency situations. The facility jeopardizes the health of the 
students and faculty due to poor indoor air quality from mold, fungus, 
and a faulty HVAC system. The facility also suffers from rodent 
infestation, roof leaks and sagging roofs, holes in the roofs from ice, 
uneven floors, poor lighting, sewer problems, lack of handicap access, 
and lack of classroom and other space. These are just a few of the 
facility's numerous deficiencies.
    One of the primary purposes of the Nelson Act permanent fund was to 
provide funding for educational institutions for the various bands. We 
urge the Committee to consider amending H.R. 1272 to address this long-
standing unmet need.

NELSON ACT LITIGATION AND SETTLEMENT
    As noted above, Congress first acknowledged the wrongs inflicted by 
the Nelson Act upon the Chippewa Indians of Minnesota in 1926, in part, 
due to the work of the past leaders of the Leech Lake Band of Ojibwe 
when Congress first authorized the federal courts to hear claims 
brought by the various bands for damages incurred under the Nelson Act. 
See Act of May 14, 1926.
    Pursuant to this Act of 1926 and its subsequent amendments, the 
Indian Claims Commission (ICC) and the U.S. Court of Federal Claims, in 
at least 25 other Nelson Act-related claims, awarded monetary judgments 
that were distributed to the individual bands based upon damages 
incurred on their specific treaties/reservations. While the Chippewa 
Indians of Minnesota and later the MCT were the named plaintiffs in 
these cases, the awards were distributed on a per capita basis to the 
members of the bands whose reservations suffered losses of land and 
timber.
    The BIA, in its 2001 Results of Research Report (conducted under 
the Judgment Funds Act) (BIA Report), discussed some of the previous 
Nelson Act claims brought under the jurisdictional Act of 1926. The BIA 
Report notes, ``in Docket 18, the MCT pursued additional claims in a 
representative capacity on behalf of the Lake Superior, Mississippi and 
Pillager Chippewa, before the Indian Claims Commission. It also 
represented all Chippewa bands in Minnesota. . .in Dockets 19 and 
188.'' The BIA Report then lists previous Nelson Act dockets and the 
beneficiaries of the earlier awards that were distributed. The chart 
lists the total money damages awarded in that specific docket along 
with the percentages allocated to the beneficiary bands. While the MCT 
was the named plaintiff in each claim, none of these awards went to the 
MCT.
    The settlement that is the subject of H.R. 1272 stems from Dockets 
19 and 188. These claims are the remaining unresolved Nelson Act claims 
for damages incurred by the various six bands that were transferred to 
the U.S. Court of Federal Claims when the ICC dissolved in 1978. To 
advance the settlement, the MCT hired Wesley Rickard, Inc., to compile 
a report, which found that Leech Lake sustained the bulk of the damages 
under the Nelson Act. The following is a list of the damages appraised 
by Wesley Rickard, Inc., and put forward by the MCT: Leech Lake 
incurred 68.9% of the damages; Grand Portage 0.9%; Bois Forte 8.60%; 
Fond du Lac 10.20%; Mille Lacs 2.40%; and White Earth 9%.
    While the MCT heavily relied on the Wesley Rickard Report (Report) 
in settlement negotiations, it now attempts to discredit the Report. 
Wesley Rickard, Inc. worked years to locate historical records to 
document the history and value of the subject property of the claim. 
They acquired over 300 boxes of research to support their work. The 
value indications referenced above were derived from market sales of 
standing timber, market sales of log production costs, and other timely 
documentation of timber values (valuation dates were from 1879 to 
1933). These figures are based upon professional appraisals--market 
based analyses--not estimates. The Report was prepared for use in 
court. However, the parties settled shortly after this Report was 
compiled. The Report assessed the subject property and determined the 
value of loss to be $26.3 million--$17.4 million of which were losses 
incurred by Leech Lake. The parties settled for $20 million, which is 
within the ballpark of the $26.3 million valued by MCT's Report. The 
MCT spent more than $1 million on this research. Now it seeks to 
discredit and sweep this research and its results under the rug. We 
hope that the Subcommittee sees through this hypocrisy.
    On May 21, 1999, the Department of Justice, as part of the 
litigation, hired its own expert, Morgan Angel & Associates, to prepare 
a ``subject property list'' that described the disposition of the lands 
ceded under the Nelson Act. This list was filed with the Court. The 
listing clearly shows that the great majority of the lands ceded came 
from the Leech Lake Indian Reservation to establish the CNF. The 
listing also acknowledges that the majority of the listed Leech Lake 
lands were pine lands, which were far more valuable than the 
agricultural lands ceded under the Nelson Act and which were more often 
subject to the fraud that led to these claims. In 1999, the $20 million 
settlement agreement incorporated by reference this subject property 
list.

SPECIFIC CONCERNS WITH H.R. 1272
    The Judgment Funds Act governs the distribution of this settlement. 
25 U.S.C. Sec. 1401 et seq. Through this Act, Congress sought to keep 
politics out of federal court settlements. In settlements involving 
more than one tribe and where tribes disagree on the formula of 
distribution, the Act requires the BIA to identify the present day 
beneficiaries of the claim, examine the legal equities of the case, and 
consider the needs and desires of groups in a minority position. 25 
U.S.C. Sec. 1402-03. The Act then requires the BIA to submit a report 
to Congress that includes a plan for distribution of the settlement.
    The BIA issued the BIA Report pursuant to the Judgment Funds Act, 
which acknowledged that the Nelson Act, and its amendments, 
consistently refers to the ``Chippewa Indians of Minnesota,'' not the 
MCT, as the beneficiaries of any distribution of funds. The BIA Report 
concluded, ``We do not find any compelling reasons to support a six-way 
split of the fund that would result in giving preferential treatment to 
the membership of four smaller bands at the expense of the membership 
of the two larger bands.'' BIA Report, p. 10.
    The BIA Report acknowledges that past claims were distributed to 
the individual treaty beneficiary bands harmed and that, while the MCT 
was the named plaintiff, it acts only in a representative capacity on 
behalf of the treaty beneficiary bands. As noted above, the BIA Report 
acknowledges that past Nelson Act money damage awards were allocated to 
the beneficiary bands based upon the percentage of harm incurred. The 
BIA Report also acknowledges that, ``the lands sold [under the Nelson 
Act] from each of the reservations were originally reserved to the 
bands under treaty. Under the terms of the Nelson Act, Leech Lake gave 
up the most land and received the least compensation per acre.''
    The BIA Report notes that the BIA first recommended a compromise 
that would have distributed the funds based on damages (35%) and per 
capita (65%). The majority of the MCT (the four smaller bands) rejected 
this compromise proposal. The BIA revised its recommendation and 
submitted the BIA Report to Congress pursuant to the Judgment Funds 
Act. Then, in 2007, the BIA sent proposed legislation setting forth a 
per capita distribution to Congress under the Judgment Funds Act.
    Instead of following court precedent or relying upon the BIA's 
legal analyses, H.R. 1272 is based on an MCT Resolution that supports 
the distribution formula set forth in the bill. However, the 
sovereignty of the MCT flows from its six member bands, not the 
reverse. The MCT should have no say in the distribution of the Nelson 
Act settlement funds. The Treaties and Executive Orders between the 
United States and the Leech Lake Band that established our Reservation 
took place long before the MCT was established. None of these treaty 
rights were transferred or delegated to the MCT. Likewise, the 1889 
Nelson Act and the damages it caused our Reservation occurred well 
before the MCT came into existence. Finally, the Act of Congress that 
authorized the claim to be brought forward was also enacted prior to 
the existence of the MCT.
    In addition to the BIA, federal courts have also acknowledged that 
the MCT acts only in a representative capacity in these claims. The 
U.S. Court of Claims, in MCT v. United States, overturned an ICC ruling 
in part by finding that the treaty rights to lands are held by the 
tribal entity that entered into the treaty, not the individual Indian 
descendants. The Court stated:
        The Commission's order declared that the [MCT] ``is entitled to 
        maintain this action in a representative capacity on behalf of 
        all the descendants of the Mississippi bands of Chippewas and 
        the Pillager and Lake Winnibigoshish bands of Chippewas who 
        were parties to the Treaty of February 22, 1855,'' regardless 
        of their present-day membership in the Tribe.. . .At the oral 
        argument the defendant suggested that the Commission's order 
        and findings should be modified to delete the references to 
        ``descendants,'' and to provide instead that the [MCT] is 
        entitled to maintain this action in a representative capacity 
        on behalf of those bands of Chippewas (the Mississippi bands 
        and the Pillager and Lake Winnibigoshish bands) who were 
        parties to the 1855 Treaty. We agree. Tribal lands are communal 
        property in which the individual members have no separate 
        interest which can pass to their descendants who are no longer 
        members of the group. . .. At least in such proceedings the 
        [ICC] requires that the awards be made, not to individual 
        descendants of tribal members at the time of the taking, but to 
        the tribal entity or entities today. In this case, the tribal 
        entity is the Minnesota Chippewa Tribe on behalf of the 
        Mississippi, Pillager, and Lake Winnibigoshish bands.
    MCT v. U.S., 315 F.2d 906 (Ct. Cl. 1963) (interlocutory appeal of 
ICC No. 18-B decision finding that the Mississippi, Pillager, and 
Winnibigoshish held recognized title to the 1855 territory) (emphasis 
added).
    We urge the Subcommittee to look to the federal courts' previous 
treatment of claims for money damages caused by the Nelson Act before 
finalizing this distribution formula. As stated above, the ICC and U.S. 
Court of Claims, in at least 25 judgments, acknowledged the damages 
incurred under the Nelson Act by the specific bands. These awards were 
distributed to each of the six bands individually based upon the 
damages inflicted to the respective reservations pursuant to specific 
treaty or executive order.

1854 Treaty Rights and Descendants
    There is also concern that some entities may not be entitled to 
share in the settlement. The 1854 Treaty rights of the Mississippi are 
described in Article I as follows:
        The Chippewas of the Mississippi hereby assent and agree to the 
        foregoing cession, and consent that the whole amount of the 
        consideration money for the country ceded above, shall be paid 
        to the Chippewas of Lake Superior, and in consideration thereof 
        the Chippewas of Lake Superior hereby relinquish to the 
        Chippewas of the Mississippi, all their interest in and claim 
        to the lands heretofore owned by them in common, lying west of 
        the above boundry-line.
    This is an expressly reserved, treaty property right with clearly 
identified valuable consideration, which, under contract and property 
law, legally precludes any right for recovery for the Chippewas of Lake 
Superior with regard to compensation for damages for losses of lands 
and timber in the 1855 ceded territory--the territory directly west of 
the 1854 boundary line.
    The U.S. Supreme Court has repeatedly ruled that Congress may 
abrogate Indian treaty rights, but it must clearly express its intent 
to do so. United States v. Dion, 476 U.S. 734, 738-40 (1986); see also 
Washington v. Washington State Commercial Passenger Fishing Vessel 
Assn., 443 U.S. 658, 690 (1979); Menominee Tribe v. United States, 391 
U.S. 404, 413 (1968). There must be ``clear evidence that Congress 
actually considered the conflict between its intended action on the one 
hand and Indian treaty rights on the other, and chose to resolve that 
conflict by abrogating the treaty.'' United States v. Dion, supra, at 
740; see also Minnesota v. Mille Lacs Band of Chippewa Indians, 526 
U.S. 172, 203 (1999).
    H.R. 1272 contains no such ``clear evidence'' of congressional 
intent to abrogate the Chippewas' 1854 treaty right. In fact this Act 
is silent on the subject of treaty rights and provides no indication 
that Congress is considering the 1854 treaty reserved rights of the 
Chippewas of the Mississippi.
    Thus, as the Subcommittee considers H.R. 1272, we urge it to first 
recognize the past treaties and executive orders that established the 
various reservations. It is the damage to these reservations upon which 
the original claims and the resulting settlement are based.
Alternative Proposals Presented by the Leech Lake Band of Ojibwe
    For a number of years, the Leech Lake Band held the position that 
we would only support a distribution formula solely based upon damages. 
However, in 2011, the Council put forward a compromise to the other 
five bands. This compromise would acknowledge the significant harm done 
to our people while incorporating the positions of the other bands. 
This straightforward compromise would bring closure to this matter. We 
are also open and interested in working with the Subcommittee, the 
Administration, and the other bands to find a solution.

H.R. 1272 Distribution will not Withstand Judiciary Scrutiny
    I agree with the 2008 testimony of White Earth Chairwoman Erma 
Vizenor when she stated that the result of a plan to distribute funds 
on a per band formula ``would be to give 75% of the proceeds of the 
Settlement to 25% of the beneficiaries. We frankly do not believe that 
such a finding would withstand judicial scrutiny.''
    If H.R. 1272 or similar legislation is enacted without provisions 
addressing Leech Lake's concerns, we are prepared to file a lawsuit to 
challenge the inequitable distribution of the settlement funds.
    In Chippewa Indians of Minnesota v. United States, the U.S. Supreme 
Court stated:
        ``Our decisions, while recognizing that the government has 
        power to control and manage the property and affairs of its 
        Indian wards in good faith for their welfare, show that this 
        power is subject to constitutional limitations, and does not 
        enable the government to give the lands of one tribe or band to 
        another, or to deal with them as its own.''
301 U.S. 358, 375-76 (1937). This same rule of law must be applied to 
the Nelson Act settlement judgment funds that are the subject of H.R. 
1272. As a result, H.R. 1272 would amount to an unjust taking in 
violation of the U.S. Constitution.
    The four bands that support the per band split comprise only 27% of 
the total membership of all Chippewa Indians of Minnesota as that term 
was used under the Nelson Act. More importantly, these four bands 
suffered 22% of the total damages. Distributing the settlement funds as 
proposed in H.R. 1272 effectively gives property of the Leech Lake Band 
to other bands. Passage of H.R. 1272 will further prolong this debate 
through time-consuming litigation at the expense of tribal and federal 
government resources.

CONCLUSION
    Thank you for this opportunity to testify. While we agree that the 
time has come to get the settlement funds in the hands of the Chippewa 
Indians of Minnesota, we strongly disagree on the proposed formula for 
distribution set forth in H.R. 1272. It is undisputed that the great 
majority of the damages that occurred under the Nelson Act resulted 
from takings and mismanagement of lands and timber protected by treaty 
for the benefit of the Leech Lake Band of Ojibwe. Enacting legislation 
that completely ignores these damages would constitute yet another 
violation of our treaty rights and only serve to compound the injury 
done to our community.
    I look forward to continuing this dialogue with the other five 
bands, our Minnesota congressional delegation, the Administration, and 
this Subcommittee to work together to resolve this matter in a way that 
is fair.
    Above: Delegation of the Leech Lake Band of Ojibwe and the 
Shoshone-Bannock Tribes of the Fort Hall Indian Reservation with BIA 
Commissioner Charles Burke during a visit to the White House (estimated 
date 1920s).
                                 ______
                                 

                       Leech Lake Band of Ojibwe

                            LEGAL MEMORANDUM

Date:  February 14, 2012
To:  Arthur ``Archie'' LaRose, Chairman
From:  Frank Bibeau, Tribal Attorney
Re:  Nelson Act 2011 Judgment Funds Distribution
    And Leech Lake Reservation's 1854 Treaty Rights
    S. 1739 and H.R. 1272
    I have had the opportunity to review the March 29, 2011, and 
October 24, 2011, documents prepared by the Minnesota Chippewa Tribe 
Attorney re-asserting that he ``does not believe that the language in 
the 1854 Treaty precludes the Grand Portage, Fond du Lac and Bois Forte 
Bands (each identified by the United States as Lake Superior Chippewa) 
from sharing in the Nelson Act proceeds of the funds awarded in Dockets 
19 and 188.'' Important to note is that the MCT Attorney's Memorandum 
of October 24, 2011 does not cite to any supporting case law.
    What both LLBO legal memos argue is that ``All Lake Superior Bands 
relinquished to the Mississippi bands their rights, title and interests 
in the Chippewa lands west of the 1854 Cession'' which means any damage 
award for losses in the 1855 Ceded Territory or 78% of the Nelson Act 
damages Judgment Award, legally, should only be distributed to the 
Chippewa Bands which actually hold exclusive Indian title, which are 
the Mississippi, Pillager and Winnibigoshish members of the MCT. The 
Lake Superior Bands do have rights to recovery for Nelson Act damages 
awarded for losses in the 1854 Ceded Territory.
        The United States Supreme Court reaffirmed that
        it had long been the settled rule in respect of the Chippewa 
        Indians in Minnesota that a band or bands occupying a separate 
        reservation should be regarded and dealt with as having the 
        full Indian title to the lands therein. The Indians both 
        recognized and gave effect to the rule. Many cessions were 
        negotiated and carried out in conformity with it. The band or 
        bands occupying a reservation ceded it in whole or in part 
        without any participation by other bands and received and 
        enjoyed the compensation without sharing it with others. Under 
        the rule each of the bands existing in 1889 had theretofore 
        made cessions and received pay therefore quite independently of 
        the other bands.
    See Chippewa Indians of Minnesota v. U.S. (Red Lake Band of 
Chippewa Indians of Minn., Intervenors), 301 U.S. 358, 57 S.Ct. 826, 81 
L.Ed. 1156 (1937). The Nelson Act attempted to change this practice to 
where all tribal lands would be pooled for the benefit of all Chippewa 
Indians in Minnesota. This Supreme Court case separated out Red Lake 
and Pembina lands from the Nelson Act's common lands because of 
exclusive tribal ownership under the land cession treaties. This is the 
same rule of law that must be applied now to the Nelson Act settlement 
judgment funds here, to protect our exclusive, 1854 treaty property 
rights from the Lake Superior band members of the MCT.
        The Supreme Court went on to remind Congress that
        Our decisions, while recognizing that the government has power 
        to control and manage the property and affairs of its Indian 
        wards in good faith for their welfare, show that this power is 
        subject to constitutional limitations and does not enable the 
        government to give the lands of one tribe or band to another, 
        or to deal with them as its own.
(Id. at 375-376, see Art. V, Bill of Rights which protects citizens' 
from being ``deprived of life, liberty, or property, without due 
process of law; nor shall private property be taken for public use, 
without just compensation.'')
    These same constitutional limitations apply to the MCT as a 
representative tribal government in the Nelson Act proceedings. The MCT 
Constitution provides in part that no member shall be denied any of the 
constitutional rights or guarantees enjoyed by other citizens of the United 
States, including but not limited to [. . .] the right to petition for 
action or the redress of grievances, and due process of law.
(See MCT Const., Art XIII).
    Additionally, Congressional protections for tribal members' rights 
under the Indian Civil Rights Act of 1968 provides that ``No Indian 
tribe in exercising powers of self-government shall [. . .] take any 
private property for a public use without just compensation.'' (See 
ICRA, 25 U.S.C. Sec. 1302(5)). This very same constitutional limitation 
or protection is very important to note for purposes of any Act of 
Congress in that the U.S. Supreme Court has repeatedly ruled that
        Congress may abrogate Indian treaty rights, but it must clearly 
        express its intent to do so. United States v. Dion, 476 U.S. 
        734, 738-740, 106 S.Ct. 2216, 90 L.Ed.2d 767 (1986); see also 
        Washington v. Washington State Commercial Passenger Fishing 
        Vessel Assn., 443 U.S., at 690, 99 S.Ct. 3055; Menominee Tribe 
        v. United States, 391 U.S. 404, 413, 88 S.Ct. 1705, 20 L.Ed.2d 
        697 (1968). There must be ``clear evidence that Congress 
        actually considered the conflict between its intended action on 
        the one hand and Indian treaty rights on the other, and chose 
        to resolve that conflict by abrogating the treaty.'' United 
        States v. Dion, supra, at 740, 106 S.Ct. 2216.
See Minnesota v. Mille Lacs Band of Chippewa Indians, 526 U.S. 172, at 
203, 119 S.Ct. 1187, at 1204 (1999).
    In reviewing the ``Minnesota Chippewa Tribe Judgment Fund 
Distribution Act of 2011'', there is no such ``clear evidence'' of 
congressional intent to abrogate the Chippewas' of the Mississippi 1854 
treaty right. In fact, this Act is silent and makes no mention of our 
Indian treaty rights; it provides no clue that Congress is even 
considering abrogation of the 1854 treaty reserved, property rights of 
the Chippewas of the Mississippi.
    Leech Lake has given formal Notice to the House Committee on 
Natural Resources by Chairman LaRose, April 14, 2011, of our 1854/1855 
Treaty Rights to warn Congress' Minnesota Delegation and certain 
Committee Chairs, of the imminent violation by Congress under the Act. 
Chairman LaRose also gave Notice to the Senate in his verbal and 
written testimony at the Legislative Hearing for S. 1739 on February 2, 
2012.
    Finally, the 1999 Joint Motion and Stipulation that settled these 
Nelson Act claims expressly provided that '' Nothing in this 
Stipulation shall be construed to limit, foreclose, or otherwise 
adversely affect any tribal right to hunt, fish and gather, or any 
tribal right, on any lands or waters within any of the reservations of 
plaintiff's six constituent bands.'' (See MCT Testimony Attachment 5, 
Item 11).
    Therefore, before Congress can take the Nelson Act compensation due 
the Chippewa of the Mississippi, Pillager, and Winnibigoshish Bands, 
and give it away to other Minnesota Chippewa Bands' members, this 
present legislation, S. 1739 and H.R.1272, must show clear evidence 
that Congress actually considered the conflict and chose to resolve 
that conflict by abrogating our 1854 treaty right.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3149.001
                                 

                                 [GRAPHIC] [TIFF OMITTED] T3149.002
                                 
                                ------                                



                      ADDENDUM TO THE TESTIMONY OF

        CHAIRMAN ARTHUR LAROSE OF THE LEECH LAKE BAND OF OJIBWE

                   Before the House Natural Resources

            Subcommittee on Indian and Alaska Native Affairs

                     Legislative Hearing to Examine

           H.R. 1272, the MCT Judgment Fund Distribution Act

                             March 1, 2012

ATTACHMENTS
        1.  MCT Comparison Reports of damages inflicted on each Treaty 
        established Reservation, prepared by Wesley Rickard, Inc.
        2.  MCT Schedule of Per Capita Distribution Funds Judgments 
        (Listing of prior Nelson Act judgments approved by Congress and 
        the Courts)
        3.  Map of Land Ownership within the Leech Lake Reservation
        4.  Legal Memo Re: Nelson Act 2011 Judgment Funds Distribution 
        and Leech Lake Reservation's 1854 Treaty rights (February 14, 
        2012)
        5.  Legal Memo Re: H.R. 1272 MCT Judgment Fund Distribution Act 
        of 2011, Notice of 1854/1855 Treaty Rights Violation (April 7, 
        2011)
 ADDITIONAL LIST OF DOCUMENTS related to H.R. 1272 and the Court 
        Settlement in Minnesota Chippewa Tribe v. U.S. Docket numbers 
        19 and 188
        *  Report on the Fair Market Value Appraisal of Ceded Timber 
        under the Nelson Act of 1889 in Dockets 19 and 188 by Wesley 
        Rickard, Inc. (1996) (MCT Expert in Settlement Negotiations) 
        (Research and report conducted under contract by MCT)
        *  Morgan & Angel Subject Property List (May 21, 1999) (DOJ 
        Expert in Settlement Negotiations)
        *  BIA Results of Research Report (June 6, 2001) (Conducted 
        pursuant to Indian Tribal Judgment Funds Distribution Act, 25 
        U.S.C. 1401 et seq.)
        *  Legal Memo Re: Judgment Funds Distribution And Leech Lake 
        Reservation's 1854 Treaty rights (Oct. 26, 2011)
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3149.003
                                 
                                ------                                


    Mr. Young. Thank you, sir. I appreciate it. Mr. Boren?
    Mr. Boren. Thank you, Mr. Chairman. You know, I just had a 
group in my office earlier. We were talking about water rights 
issues. And we were talking about litigation and everything. 
And you hate to see something like this get to this point, 
where you have people obviously with shared interests, but you 
have issues, you have dollar figures, you have other things 
that you are fighting over. And what you don't want to see is, 
at the end of the day, no one getting any benefit out of this 
settlement.
    So, my question is to the Chairman LaRose, who just spoke. 
Do you feel like, you know, when Norman over here--when they 
put it together, when there was an effort to have consensus 
among the bands, was there enough effort?
    And I would like to get your thoughts, and then I would 
like to get your thoughts. Was there enough effort at trying to 
get that consensus without getting to where we are now, where 
we are sitting here with a bill before Congress and--you know, 
obviously, I can tell you, having, you know, Mr. Peterson as an 
author of the bill, being a chairman of a committee, very 
highly respected, you know, that is something that we do all 
look at. But we also have to look at all the facts.
    And I don't want to prejudge anything, so I want to make 
sure I get all the facts on how the consensus was reached. But 
I just hate when it gets into litigation and everything else. 
It would be really nice where everyone could walk away and be 
happy. But it looks like this may not be able to happen.
    Could you talk to us a little bit about how this occurred, 
how the effort for consensus occurred? Mr. Chairman?
    Mr. LaRose. Yes, thank you. For the record, I have been on 
the TC level since 2002 as the past Secretary-Treasurer for the 
Leech Lake Reservation. Back in 2002, all the way up until 
right around 2007, there was a 3-way argument between the 6 
reservations. Our argument has always been based on 68.9 
percent of the damages. The 4 smaller reservations' argument 
has always been a 1/6 split. And the White Earth's argument has 
always been based on population.
    Well, I think we all remember right around 2007 the White 
Earth Reservation, along with Collin Peterson, tried to 
introduce a bill based on population, and that bill didn't go 
anywhere. And right after that bill didn't go anywhere, the 
four smaller reservations compromised with White Earth, leaving 
Leech Lake out of the picture.
    So, from day one we have never compromised with the five 
bands. They never sat down and asked us what we felt was fair. 
You know, we have been left out of this whole picture. And you 
know, we are talking 600,000 acres of land we lost from this 
Nelson Act settlement. And, you know, we feel we should be 
fully compensated for the damages that happened and occurred on 
the Leech Lake Reservation.
    In fact, these three smaller bands, they signed the 1854 
treaty. When they signed that 1854 treaty--I am talking about 
Mille Lacs--or, excuse me, I am not talking about Mille Lacs, I 
am talking about Fond du Lac, Bois Forte, and Grand Portage. 
They signed an 1854 treaty where they waived all rights and 
claims west of the 1854 treaty. And I, myself, the Leech Lake 
Reservation, White Earth, and part of Mille Lacs sit in the 
1855 treaty. But the 1855 treaty itself, where the Nelson Act 
happened, sits right in the middle of Leech Lake Reservation, 
and that is where a majority of the damages happened and 
occurred.
    Mr. Boren. Well, can we speed up from where the treaties 
were to where the distribution plan occurred?
    My question is, is there any room to give--from your 
position, is there any negotiating room? Or are we just stuck?
    Mr. LaRose. Yes. We have been willing----
    Mr. Boren. Like that--I have only got a minute left, so 
real quick, and then I would like to go to Norman over here.
    Mr. LaRose. OK. Yes, we were willing to negotiate with the 
other five bands. We are willing to compromise with them. But 
the current bill that is at stake right now disrespects and 
doesn't do anything positive for the Leech Lake Band of Ojibwe.
    Mr. Boren. OK. Sir?
    Mr. Deschampe. Thank you. With all due respect, Chairman 
LaRose, Leech Lake was very much a part of all the negotiation 
process from day one. In every session that took place, Leech 
Lake was there. As a matter of fact, Leech Lake requested a 
second vote on this issue, and was granted that. And the vote 
really didn't change.
    So, to say that Leech Lake was left out of the picture is 
not really true. Leech Lake's position was not--they didn't get 
their--in the end. But they were at the table, they were part 
of the discussion. And to say that they weren't is really not 
true.
    And the other thing is it is all about compromise. I mean 
if Leech Lake wants 68.9 percent of this for damages, White 
Earth is 70 percent of the population. What does that add up 
to, 130 percent? So there has to be compromise somewhere. And 
we understood that. And we worked diligently on that. And we 
did, I guess, the hard work.
    And we understand that, with all due respect, that I really 
have a--share Archie's issue with the land issue. But I think 
there was no property transfer in this. To say that Leech 
Lake's property was transferred to the other bands, that is 
really not true. Nowhere in here was there any transfer of 
property of any kind. I think the map that was up there, I 
think a lot of the red trust land within that boundary is all--
a lot--most of it is MCT lands.
    So, there is a lot of compromising that takes place. There 
is a lot to this issue that we don't have time today to go 
through. And I don't--I really don't think we are here to 
relitigate what happened----
    Mr. Boren. Yes.
    Mr. Deschampe [continuing]. In the court case. We are here 
to talk about what is a fair way to settle this, based on the 
circumstances.
    And like I say, I appreciate Leech Lake's position, and 
support that. We were all wronged.
    Mr. Boren. Well, let me reclaim my time, because we are 
kind of running out here. To me there is a lot of different 
factors going on here. There is land, there is population, 
there is the court case, obviously. There is the timeliness of 
this. I mean do we want to keep fighting over this for another 
decade, and no one gets any money?
    So, we are going to have to weigh--that is why we have this 
hearing, is to weigh all these factors, and whether or not this 
bill is the right way to go.
    And I remember in the last Congress, when Mr. Oberstar and 
Mr. Peterson were kind of going back and forth on all this. But 
this has been very educational for me. And I appreciate 
everyone's opinion. And certainly I think everyone is trying to 
do what is in the best interest of--from their respective 
parties. And I appreciate everyone's testimony.
    Mr. Young. Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman, and thank the 
witnesses. I have met each one of you, individually.
    Was there much effort or discussion on taking elements of 
the three approaches--the one-sixth approach, the population 
approach, and the damages approach--and see if you can blend 
those together in some way, using elements? But was that 
discussed much during your negotiations?
    I will ask Mr. LaRose.
    Mr. LaRose. That was brought up by Leech Lake in the past, 
but we never received any feedback from any of the other five 
reservations on that three-way split.
    Mr. Kildee. In other words, using the three elements? 
Because there is----
    Mr. LaRose. Yes, based on----
    Mr. Kildee [continuing]. One-sixth----
    Mr. LaRose. Yes, based on population, based on damages, and 
the one-sixth split----
    Mr. Kildee. One-sixth----
    Mr. LaRose [continuing]. Straight across the board. That 
was suggested at a meeting in the past, but never no follow-up 
from the other five reservations.
    Mr. Kildee. No great pursuit on that, then?
    Mr. LaRose. No. It wasn't pursued. It was brought up as a 
compromise. But, you know, nothing ever happened from that, 
just brought up as a compromise.
    Mr. Kildee. OK. Well, you know, I have been involved in 
Congress for 36 years on Indian matters, and then 12 years back 
in the State Legislature, where I introduced the Indian Tuition 
Waiver Act. And in Michigan, any Indian under my bill can go to 
college in Michigan without paying tuition. That is still a law 
in Michigan. So I have been involved.
    And you try to pursue justice. But sometimes you are not 
sure what really is the most just approach. And we don't have 
the wisdom of Solomon here. I think the one thing we would all 
agree upon, we want this money to be distributed, and not just 
lying somewhere, but have as much justice as we can find on 
that.
    I, first of all, say Mii gwetch to all of you. This is 
difficult. You know, you are friends and yet you have 
differences. Right? You are brothers and sisters and you have 
differences. And--but we don't want that money--and neither do 
you--just sitting there and not being distributed. And I am not 
sure where we have all the wisdom to come up with the right 
answer.
    But I do appreciate your efforts, and I appreciate our 
obligation to try to work with you, but also recognizing that 
we can't diminish your sovereignty, too. I mean we are not 
dealing with a corporation, we are not dealing with General 
Motors or Chrysler or Ford. We are dealing with sovereignties 
out there, and we have to be very sensitive to that.
    Marge, I will never forget the time you put that eagle in 
my arms and let me release the eagle. And I kept watching that 
eagle's eyes all the time. But I visited your sovereign 
territory out there, and say to you Mii gwetch for what you 
have done in trying to arrive at a solution here, and hope we 
have the wisdom to do what will be helpful to move toward 
justice. Thank you very much.
    Mr. Young. Thank you, Mr. Kildee.
    Erma, you mentioned five compromises. Can you give me an 
example of that? I think you said that. Didn't you?
    Ms. Vizenor. Well, we have--Mr. Chairman, over the years, 
the past 12 years, White Earth was one of the tribes that did 
not agree. And it was in 2000, the year 2000, that we made the 
appeal to the Department of the Interior, because White Earth, 
the White Earth Reservation, was well over 950,000 acres of 
land, and history shows it was swindled.
    And at the end of the 1800s, we had less than 50,000 acres 
of land. We lost four townships as a result of the Nelson Act. 
The four townships, if you go through, is Itasca State Park. 
That is how our four townships look with timber. And it was not 
a part of the settlement.
    And so, we appealed to the Department of the Interior, and 
thus the results of research happened. And what the Department 
of the Interior stated, found, was that the most equitable way 
for this distribution was on a per capita. And this is based on 
research.
    And so, that was our position for a number of years. 
However, we knew that we could not cling to this position, that 
there had to be a compromise, and that we had to give and take, 
which we did. And today we--our tribal members--and it is very 
true, as stated, that our tribal members are--the elders are 
dying. They are waiting for this money. They want the money.
    And so, as responsible tribal leaders, it is our 
responsibility to give due what our elders have lost, and to 
move this forward. And we made the compromise. We give and 
take. And yes, I totally support the bill that is on the table 
today.
    Mr. Young. I just--you know, I think most of you can 
understand where I am coming from. This is about a settlement 
by a court. Is that correct?
    Ms. Vizenor. That is correct.
    Mr. Young. OK.
    Ms. Vizenor. The Claims Court.
    Mr. Young. And the distribution--and I don't disagree. All 
of the tribes that I know, the lands that were taken away from 
tribes by actions of the BIA--that is why I am not overly fond 
of the BIA--they allowed this to happen. They had leases--we 
just settled one settlement for less than I think was 
necessary, because I believe it was about $27 billion settled 
for $2.5 billion--most of that is trying to go to lawyers, 
which upsets me. So I am trying to, you know, expedite this 
process.
    But second, each--under this settlement, is the $300 per 
tribal member? OK. What--is that the total amount of money of 
the $28 million, or does some go to the tribes in an amount, a 
big amount?
    Mr. Deschampe. Yes, $300 to each tribal member. That is 
approximately, I think, like $12 million.
    Mr. Young. OK. And then the rest of it will go to the six 
tribes?
    Mr. Deschampe. Divide it up equally, yes.
    Mr. Young. Equally, the six tribes.
    Mr. Deschampe. Right.
    Mr. Young. Which would amount--so say it is $20 million, 
you got 6 tribes, you are probably getting $1.8 million. Is 
that right?
    Mr. Deschampe. Yes, a little over $2 million.
    Mr. Young. A little over $2 million. There is $8 million in 
interest.
    Mr. Deschampe. Right.
    Mr. Young. OK.
    Mr. Deschampe. But that is factored in, too.
    Mr. Young. I--you know, I have listened to Mr. LaRose, and 
all three of you, and I have also--as Mr. Boren said, we are 
going to solve this problem. And all due respect, Mr. LaRose, 
don't threaten us with a lawsuit. You can have your lawyers 
make a lot of money out of this.
    But we can--we do write the law. And don't ever forget 
that. And your lawyer tells you any different, you can file it, 
but you won't get any money, you will just pay your damn 
lawyers, and they turn around and send their kids to college. 
And after 12, 13 years, probably a lot of lawyers' kids have 
gone to college on this issue. And I don't appreciate that, 
because they are sucking off the final settlement. So keep that 
in mind. You are all Chippewas. And if you are not Chippewas, 
let me know that. And you are one tribe. And that is what the 
decision was made on in the court decision.
    So, I do appreciate all of you being here. And I understand 
that you have differences of opinion. But we are going to--you 
end up maybe not liking what I might do. I am very good at 
this, being a single Member from Alaska, I sometimes cut the 
baby in half, and everybody is unhappy with me. I might do 
that. I just want you to keep that in mind.
    So, I want to thank the total panel, and I appreciate 
your--yes, go ahead. I am sorry. Where have you been? You just 
can't come walking back and forth in here. Come on. OK, Mr.----
    Mr. Faleomavaega. I realize----
    Mr. Young. You can come say something.
    Mr. Faleomavaega. I realize Alaska is the largest state in 
the union, and I realize I am the smallest. No. But I do want 
to thank you, Mr. Chairman. I think there is some real very 
serious and strong issues that have been brought before by our 
respective leaders representing the Chippewa Tribe.
    And I want to say for the record that in the 20 years that 
I have served as a member of this committee, specifically 
dealing with Native American issues--because, as an indigenous 
person myself, I have a very strong feeling about these issues. 
And you could not find a better champion than the gentleman 
from Alaska. And I am just so happy and proud that, as Chairman 
of this Subcommittee, that he knows the heart and minds and 
hopes and--of everything that we can try to resolve problems 
and the needs of our Native American community. Also at a 
tremendous loss is my dear colleague, who is about to retire 
this year. As Co-Chairman of our Native American Indian 
Congressional Caucus with Congressman Tom Cole, I am really, 
really sad to see that my good friend and colleague, Dale 
Kildee, will be retiring this year, also a tremendous champion 
of the Native American community.
    A couple of questions I just wanted for the record, if 
possible. Mr. Deschampe, can you give me a breakdown of the 
population of the different six bands that we are talking 
about? I can't even get that figure from the Director of the 
Bureau of Indian Affairs. I am just curious. The Bois, the Fond 
du Lac, the Grand Portage, the Mille Lacs, the White Earth, the 
Leech Lake, do you have a breakdown of the populations of the 
different bands?
    Mr. Deschampe. Yes. Fond du Lac, 4,000; Mille Lacs----
    Mr. Faleomavaega. Can you submit that for the record?
    Mr. Deschampe. Sure.
    Mr. Faleomavaega. Yes, OK, because I have my time problem 
here.
    Mr. Deschampe. OK.
    Mr. Faleomavaega. In terms of the population breakdown, we 
understand that. Now, just wanted to know that based on that 
breakdown, what are we talking about, both principal and 
interest, that has been collected with this fund? It is about, 
what, $28 million?
    Mr. Deschampe. Yes, yes.
    Mr. Faleomavaega. OK, this is the part that we are talking 
about.
    Mr. Deschampe. Yes, it is.
    Mr. Faleomavaega. And this has been the problem for the 
past 12 years that we cannot resolve.
    Mr. Deschampe. Yes.
    Mr. Faleomavaega. And you are all Chippewas.
    Mr. Deschampe. Yes, we are.
    Mr. Faleomavaega. And you fight like hell with each other.
    [Laughter.]
    Mr. Faleomavaega. That is the spirit, I like that. I just 
wanted to know that, as a result of the Nelson Act, am I 
correct to say that each one of you have lost a certain number 
of acres in this problem that Nelson--literally dismantled your 
ownership of these acres?
    And if I could just start--am I correct, Mr. LaRose? Your 
particular reservation and band lost 600,000 acres?
    Mr. LaRose. Yes, you are correct.
    Mr. Faleomavaega. OK. How about the Bois Band? How many 
acres did you lose, or whoever--do you have a breakdown of the 
number of acres that each of the bands have lost, as a result 
of the Nelson Act? So I am clear now. Mr. LaRose addresses 
specifically 600,000 acres his band lost. How much did the Bois 
Band lost, and the Fond du Lac, and the Grand Portage and the 
Mille Lacs and the White Earth? Do we have that as a matter of 
record? Can you submit that for the record?
    Mr. Deschampe. Yes, I can. I think it is 50,000 acres, sir.
    Mr. Faleomavaega. OK. Now, you say that you have a 
disagreement respectfully with the statements made by Mr. 
LaRose, President Deschampe. Was there a Chippewa Nation, as a 
nation, having a single treaty with the United States, or 
were--all of you have all your own separate individual treaties 
relationship with the United States----
    Mr. Deschampe. Yes----
    Mr. Faleomavaega [continuing]. In the course of history?
    Mr. Deschampe. And it gets complicated when you are talking 
about----
    Mr. Faleomavaega. Well, let's not complicate it. Let's make 
it simple. Each one of you had your own separate treaty 
relationships with the U.S. Government.
    Mr. Deschampe. Yes. And there are other Chippewas, too----
    Mr. Faleomavaega. Yes, I know, I know.
    Mr. Deschampe. Yes.
    Mr. Faleomavaega. Let's just talk about Minnesota. Forget 
Wisconsin and North Dakota. Let's just talk about Minnesota.
    Mr. Deschampe. OK.
    Mr. Faleomavaega. Now, among all the six bands, do any of 
you have your acres comparable to the losses that Leech Lake--
600,000 acres is what they are saying they lost. Erma?
    Mr. Deschampe. Go ahead, Erma.
    Ms. Vizenor. Yes.
    Mr. Faleomavaega. Erma?
    Ms. Vizenor. Yes, your----
    Mr. Faleomavaega. You lost how many acres?
    Ms. Vizenor. White Earth was a--the original land base was 
950,000 acres of land, and now these Acts of Congress were in 
sequence and----
    Mr. Faleomavaega. Yes, we just cut you to pieces.
    Ms. Vizenor. Yes.
    Mr. Faleomavaega. We know that, yes.
    Ms. Vizenor. Yes, yes.
    Mr. Faleomavaega. OK.
    Ms. Vizenor. And so, today we own--and it is in common 
ownership with the Minnesota Chippewa Tribe--we have 
approximately 60,000 acres of land.
    Mr. Faleomavaega. Yes.
    Ms. Vizenor. Of that land base.
    Mr. Faleomavaega. As a result today, Mr. LaRose, how many 
acres do you have left?
    Mr. LaRose. We own four percent of our land.
    Mr. Faleomavaega. Four percent, but how many acres? Ms. 
Anderson, how----
    Mr. LaRose. Forty thousand acres we own today.
    Mr. Faleomavaega. Forty thousand?
    Mr. LaRose. From 640,000 acres.
    Mr. Faleomavaega. OK. And, Ms. Anderson, how many acres did 
your band lose?
    Ms. Anderson. Sixty thousand acres.
    Mr. Faleomavaega. OK.
    Ms. Anderson. It was dwindled down to 60 acres because of 
the Nelson Act.
    Mr. Faleomavaega. So I realize that there has been all 
kinds of mixtures, that we didn't honor some 389 treaties that 
the U.S. Government had with all the Indian Nations, we know 
that. We broke every one of them. But in the process where each 
of the tribes or the bands were able to maintain their sense of 
ownership of these acres, as I am trying to suggest here, Ms.--
and when you said that 900,000 acres among your people were 
lost, was there proper documentation to verify that?
    Ms. Vizenor. Yes.
    Mr. Faleomavaega. OK.
    Ms. Vizenor. And if you look--if you read the results of 
research, that would be a start.
    Mr. Faleomavaega. OK. Well, Mr. Chairman, I know my time is 
up. But I will submit the rest of my questions in writing, Mr. 
Chairman. But I really believe I have to associate myself with 
the gentleman from Oklahoma. Some very serious concerns, in 
terms of how we can do this.
    I realize you either fish or cut bait when you come to the 
Congress, and I don't know if the Congress is the best 
institution to give you a solution to your problem.
    Mr. Young. Well, I----
    Mr. Faleomavaega. Sadly, sadly----
    Mr. Young. All due respect, sir, the Congress is the only 
solution. That is our trust with all Native tribes. And not 
even the BIA.
    Mr. Faleomavaega. I agree with you, Mr. Chairman.
    Mr. Young. And that is something we will work on, and I----
    Mr. Faleomavaega. All right. Look forward to working with 
you in that regard.
    Mr. Young. Good, because I know this is not a good subject 
for everybody.
    Mr. Faleomavaega. Yes.
    Mr. Young. We do have something that--and I want to talk to 
all the tribal members here--in Alaska we have a 7(I) 
provision. We have actually 12 large tribes in our state, and 
214 small tribes, all related to the 12 big tribes. But when 
one tribe makes money off of any activity of natural resources, 
be it timber or anything else, they all share equally with all 
Alaska Natives. And that is sort of interesting. It was 
objected to, but it takes some areas--you know, like southeast 
had timber, they had to give other tribes part of the revenue 
they generated from their timber. If they had minerals, they 
have to give the other tribes a percentage of the oil, same 
thing.
    And that makes every one of the Alaska Natives considered 1 
big tribe, although there is 12 smaller tribes and 214 tribes 
below that. You think this is confusing? It makes it equitable, 
as far as resources. So that is just a little history. With 
that, I thank the----
    Mr. Faleomavaega. Mr. Chairman, I want to thank you. I look 
forward to working with you.
    Mr. Young. I thank the panel and we look forward to hearing 
from you again. Thank you very much. The Subcommittee is 
adjourned.
    [Whereupon, at 12:25 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

Statement submitted for the record by Hon. Karen R. Diver, Chairwoman, 
 Fond du Lac Band of Lake Superior Chippewa, on H.R. 1272: To Provide 
  for the Use and Distribution of the Funds Awarded to the Minnesota 
  Chippewa Tribe in Minnesota Chippewa Tribe V. United States, Docket 
        Nos. 19 and 188, United States Court of Federal Claims.

    CHAIRMAN YOUNG and Members of the Committee:
    I am pleased to testify in favor of H.R. 1272 and join my esteemed 
colleagues from the Minnesota Chippewa Tribe (MCT) who have testified 
also in favor of H.R. 3699, in 2008, and wish to state the Fond du Lac 
Band's full support of their remarks.
    The Minnesota Chippewa Tribe is a federally recognized tribe 
organized pursuant to the Indian Reorganization Act of 1934. The MCT 
Constitution was adopted on July 24, 1936, and my predecessors in 
office from Fond du Lac and the other constituent Bands have been 
following this Constitution since that time. The Tribal Executive 
Committee (TEC) is the governing body of the Tribe, and is comprised of 
twelve members, two from each of the six constituent Bands. During that 
72-year period of time, the Minnesota Chippewa Tribe has acted as a 
government adopting resolutions and ordinances governing land use, 
elections, membership and resolving other legal disputes. The votes on 
those laws were not always unanimous nor does the Constitution require 
unanimity. Yet, the MCT has governed efficiently and effectively with 
its majority rule; I would say much like this esteemed body.
    Today, however, we find ourselves in a difficult position wherein 
one Band of our Tribe seeks to delay final resolution of this issue in 
an effort to increase its gain. The question for this Congress is 
whether it is willing to respect the sovereignty of the Minnesota 
Chippewa Tribe, give effect to the Tribe's decision, and finally bring 
a half century of litigation and over a century of damages to a 
conclusion.
    Although my fellow Tribal members from Leech Lake make an emotional 
appeal to the damages they claim to have suffered, the simple fact is 
that their claims lack a basis in fact or law. This case was settled, 
with the approval of Leech Lake, without an accounting of specific 
Band-by-Band damages by the court. Although the arguments of Leech Lake 
may be heartfelt, they fail to justify continued delay in the ultimate 
distribution of the funds awarded to the Minnesota Chippewa Tribe.
    The facts of H.R. 1272, and the litigation underpinning it are 
simply this: the Minnesota Chippewa Tribe was the named party in the 
litigation--not the individual Bands; the decision to settle the 
lawsuit was not unanimous, yet both the Claims Court and the Federal 
government found that the resolution by the Tribal Executive Committee 
adopting the settlement was a proper expression of MCT law and binding 
on all of the Bands. If Minnesota Chippewa Tribe law was good for 
settling the lawsuit it is equally good for distributing the proceeds 
from that lawsuit. The Tribal Executive Committee operates much like 
the United States Senate when it comes to its legislative work. The 
number of Senators is set without respect to population yet they are 
not required to adopt legislation unanimously. Fond du Lac has not 
always agreed with the majority and as a result has been in the 
minority on many occasions. Indeed, Fond du Lac did not agree with the 
decision to settle this lawsuit; however, we recognize that the 
decisions of the Tribe must be respected. To do otherwise invites 
anarchy and does what others have failed to do--bring an end to the 
Minnesota Chippewa Tribe.
    A century of uncompensated damages, a half century of litigation, 
and over a decade awaiting Congressional action before settlement funds 
can be distributed seems more like a Dickensian novel than justice for 
an aggrieved party. Unfortunately that is what this is. On behalf of 
the Fond du Lac Band I request that the Committee report out H.R. 1272 
favorably and with all due speed; thereby allowing the Bands access to 
badly needed resources. We have been waiting far too long by any 
measure. I thank the Committee for addressing this issue and for all 
that has been done for Indian Country in the United States of America.
                                 ______
                                 

 Statement submitted for the record by Hon. Kevin W. Leecy, Chairman, 
 Bois Forte Band of Chippewa, on H.R. 1272: To Provide for the Use and 
 Distribution of the Funds Awarded to the Minnesota Chippewa Tribe in 
  Minnesota Chippewa Tribe V. United States, Docket Nos. 19 and 188, 
                 United States Court of Federal Claims.

    Chairman Young and Members of the Committee:
    My name is Kevin Leecy and I am the Chairman of the Bois Forte Band 
of Chippewa. I am pleased to testify in support of H.R. 1272, a bill 
that will distribute funds awarded to the Minnesota Chippewa Tribe in a 
case that began in the Indian Claims Commission more than sixty (60) 
years ago.
    I want to thank Representatives Collin Peterson and Chip Cravaack 
for their efforts to move this legislation forward. Together they 
represent all of the Chippewa Reservations in our state; and it was 
shortly after Congressman Cravaack took office that I visited him to 
enlist his support in getting this finally resolved. This bi-partisan 
legislation will benefit all of the members of the Minnesota Chippewa 
Tribe and I urge the Committee to move this bill forward.
    Much has been said about the formula for the distribution of this 
award. The five Bands that represent 80% of the membership support it 
and believe it is fair for all. We have discussed the concerns of the 
Leech Lake Band at many of our meetings and we have tried to assist 
with Leech Lake's concerns about the Chippewa National Forest. I would 
like to address that issue further.
    The Chippewa National Forest was created by Act of Congress in 1908 
and it resulted in taking a large tract of the Leech Lake Reservation 
for that purpose. For purposes of this bill, the key is that the 
appropriation of the land and timber was after the Nelson Act of 1889 
and that meant that the lands were then held in trust for the entire 
Chippewa Tribe and not just Leech Lake. It also meant that the proceeds 
of sale of those lands were shared with all Chippewa--not just Leech 
Lake. See the Act of May 23, 1908, 35 Stat. 268.
    The Department of the Interior summarized the impact of the Nelson 
Act this way:
        Where ceded lands have been set apart by the Government for 
        other purposes, such as a forest reserve, the Government paid 
        the value of the lands into the general fund for the benefit of 
        all the Chippewa Indians of Minnesota.
    Leech Lake was not alone in suffering a loss of its lands. On the 
Bois Forte Reservation, more than half of our 100,000 acres was sold 
off. At White Earth, the four northeast townships were separated from 
the Reservation and sold for its timber. In each case, the money 
received went to all the Chippewa of Minnesota and not to the Band that 
suffered the loss.
    We all recognize how devastating the Nelson Act was to all of the 
Reservations and we also realize that, in the end, the lands sold to 
others should be restored to tribal ownership. That is why the Tribe 
made sure that the stipulation of settlement in this case made it clear 
that we would not be barred from seeking legislation to return land. 
But that is not what this legislation is about. This legislation will 
allow the Minnesota Chippewa Tribe to close the book on compensation 
under these claims and to move on to other issues.
    As I mentioned, the Minnesota Chippewa Tribe has tried to assist 
Leech Lake. When the Tribal Executive Committee adopted the formula for 
sharing these funds, we adopted a resolution supporting Leech Lake's 
efforts to return management of the Chippewa National Forest to the 
Leech Lake Band. The Tribal Executive Committee believed that Leech 
Lake would realize long-term economic benefits from doing that and we 
wanted to help.
    I want to emphasize, however, that Leech Lake's concern about the 
Chippewa National Forest is a separate issue from what is before you 
today. Again, I ask you to report out H.R. 1272.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
